<html>
<title> - TELEWORK: BREAKING NEW GROUND?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     TELEWORK: BREAKING NEW GROUND? 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2007

                               __________

                           Serial No. 110-66

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-599 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 












































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   JIM JORDAN, Ohio
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director








































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 6, 2007.................................     1
Statement of:
    Green, Daniel A., Deputy Associate Director, Center for 
      Employee and Family Support Policy, Office of Personnel 
      Management; Stan Kaczmarczyk, Principal Deputy Associate 
      Administrator for Government-wide Policy, General Services 
      Administration; and Bernice Steinhardt, Director, Strategic 
      Issues, Government Accountability Office...................    16
        Green, Daniel A..........................................    16
        Kaczmarczyk, Stan........................................    26
        Steinhardt, Bernice......................................    37
    Peterlin, Margaret J.A., Deputy Under Secretary of Commerce 
      for Intellectual Property and Deputy Director, U.S. Patent 
      and Trademark Office; and Lee J. Lofthus, Assistant 
      Attorney General for Administration, Department of Justice.    57
        Lofthus, Lee J...........................................    76
        Peterlin, Margaret J.A...................................    57
    Wilke, John, Trademark Examining Attorney, PTO Teleworker; 
      Stephen W.T. O'Keeffe, executive director, Telework 
      Exchange; Ann Bamesberger, vice president, Open Work 
      Services Group, SUN Microsystems, Inc.; and Haywood J. 
      Talcove, vice president, public sector americas, Juniper 
      Networks, Inc..............................................    93
        Bamesberger, Ann.........................................   111
        O'Keeffe, Stephen W.T....................................    99
        Talcove, Haywood J.......................................   152
        Wilke, John..............................................    93
Letters, statements, etc., submitted for the record by:
    Bamesberger, Ann, vice president, Open Work Services Group, 
      SUN Microsystems, Inc., prepared statement of..............   114
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     4
    Green, Daniel A., Deputy Associate Director, Center for 
      Employee and Family Support Policy, Office of Personnel 
      Management, prepared statement of..........................    18
    Kaczmarczyk, Stan, Principal Deputy Associate Administrator 
      for Government-wide Policy, General Services 
      Administration, prepared statement of......................    28
    Lofthus, Lee J., Assistant Attorney General for 
      Administration, Department of Justice, prepared statement 
      of.........................................................    78
    O'Keeffe, Stephen W.T., executive director, Telework 
      Exchange, prepared statement of............................   102
    Peterlin, Margaret J.A., Deputy Under Secretary of Commerce 
      for Intellectual Property and Deputy Director, U.S. Patent 
      and Trademark Office, prepared statement of................    60
    Steinhardt, Bernice, Director, Strategic Issues, Government 
      Accountability Office, prepared statement of...............    39
    Talcove, Haywood J., vice president, public sector americas, 
      Juniper Networks, Inc., prepared statement of..............   154
    Wilke, John, Trademark Examining Attorney, PTO Teleworker, 
      prepared statement of......................................    96
    Wolf, Hon. Frank R., a Representative in Congress from the 
      State of Virginia, prepared statement of...................   166


                     TELEWORK: BREAKING NEW GROUND?

                              ----------                              


                       TUESDAY, NOVEMBER 6, 2007

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 2154, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis of Illinois, Sarbanes, 
Cummings, Marchant, and Issa.
    Staff present: Tania Shand, staff director; Lori Hayman, 
counsel; Cecelia Morton, clerk; Charles Phillips, minority 
counsel; and Alex Cooper, minority professional staff member.
    Mr. Davis of Illinois. The subcommittee will come to order.
    Ranking Member Marchant will probably be here soon, but we 
are going to proceed. Depending on where we are, we may 
obviously interrupt so that he can give an opening statement, 
should he choose to do so.
    Let me welcome Mr. Marchant and members of the 
subcommittee, hearing witnesses, and all of those in 
attendance. Welcome to the Federal Workforce, Postal Service, 
and the District of Columbia's Subcommittee hearing on 
Telework: Breaking New Ground? The hearing will examine why 
telework, which has strong support of Congress and personnel 
experts as a strategy for addressing emergency preparedness and 
energy consumption, is not being universally embraced and 
implemented by Federal agencies.
    Hearing no objection, the Chair, ranking member, and 
subcommittee members will each have 5 minutes to make opening 
statements, and all Members will have 3 days to submit 
statements for the record.
    I am going to begin, and then we will follow along as 
Members are present.
    Ranking Member Marchant, members of the subcommittee, and 
hearing witnesses, welcome to the subcommittee's hearing on 
telework. Today's hearing will examine why telework continues 
to be under-utilized by Federal agencies and the improvements 
that are needed to allow more Federal employees to participate 
in telework programs.
    Telework provides numerous benefits, including increased 
flexibilities for both employers and employees, continuity of 
operations during emergency events, and decreased energy use 
and air pollution. The Office of Personnel Management [OPM], 
defines telework as work arrangements in which an employee 
regularly performs officially assigned duties at home or other 
work sites geographically convenient to the residence of the 
employee.
    Many of the current Federal programs were developed in 
response to a provision included in an appropriations bill 
enacted in October 2000. This law requires each executive 
branch agency to establish a telework policy under which 
eligible employees may participate in telecommuting to the 
maximum extent possible without diminishing employee 
performance.
    Under the current legislative framework, the General 
Services Administration [GSA], and OPM have leading roles in 
implementing Government-wide telework initiatives. 
Unfortunately, telework is not being used to the extent it 
should be. According to OPM's most recent report, only about 
119,000 of the approximately 1.8 million Federal employees 
participated in telework in 2005. That figure represents only 
6.6 percent of Federal agency employees.
    Some of the barriers to telework include office coverage, 
organizational culture, management resistance, and technology 
security and funding.
    Today we want to examine ways to address these barriers and 
encourage teleworking.
    On May 7, 2007, I, along with my colleague, Ranking Member 
Kenny Marchant, and the full committee chairman and ranking 
minority members, Henry Waxman and Tom Davis, sent a letter to 
25 Federal departments and agencies requesting information on 
the telework programs of those agencies. The letter was 
intended to help us better understand how well agency telework 
programs are working.
    What we found is that not only is telework inconsistently 
defined across agencies; many agencies do not effectively 
measure and track teleworkers. Some agencies do not even know 
how many of their employees are actually teleworking.
    In recent years telework has increasingly been viewed as an 
important tool for ensuring continuity of essential Government 
services in a time of crisis, such as in the event of a natural 
disaster or a terrorist attack. To help improve the 
preparedness of the Federal Government's operation in emergency 
situations, last session I introduced H.R. 5366, the Continuity 
of Operations Demonstration Project Act. This legislation 
provided for a demonstration project under which at least two 
Federal agencies would perform services and operations under a 
simulated emergency in which Federal employees would have to 
work at locations away from their usual workplace, including 
home, for at least 10 consecutive days.
    A number of agencies have taken the initiative to perform 
demonstration exercises in the last several years, but there 
are still many agencies that have not done so. I would like to 
see more agencies test their ability to continue operations in 
an emergency and incorporate telework into their continuity of 
operations plans.
    I am pleased that Representative John Sarbanes, along with 
Chairman Henry Waxman and Representative Frank Wolf, will join 
me in introducing the Telework Improvement Act of 2007. This 
legislation will bring together the efforts of my colleagues 
and breaks new ground by ensuring that eligible Federal 
employees have the opportunity to telework, and that agencies 
are incorporating telework into their continuity of operations 
planning.
    Several other legislative proposals have been introduced in 
the House and in the Senate. This issue is receiving some well-
deserved attention. The Federal Government can set the example 
for teleworking. There are some very successful agency and sub-
agency telework programs that can serve as models for the 
public and private sector.
    I thank you and look forward to the testimony of today's 
witnesses. We are fortunate to have a distinguished group of 
witnesses with us today, and I certainly want to thank you for 
being here.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Now it is my pleasure to yield such 
time as he might consume to the ranking member, Mr. Marchant, 
for any opening statement that he would like to make.
    Mr. Marchant. Thank you, Mr. Chairman.
    Congress often focuses on where Government is failing and 
how the American taxpayer is not getting what he or she is 
paying for. Today we will be discussing telework, an issue 
which demonstrates an opportunity for the Federal Government to 
increase productivity while decreasing infrastructure and 
environmental costs. I look forward to hearing about these 
opportunities.
    Mr. Chairman, for the sake of time I will leave the rest of 
my opening statement for the record. And I would also like to 
submit for the record an opening statement by Ranking Member 
Tom Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Marchant. I 
would also yield time as he might consume to Representative 
Sarbanes, who has indicated and demonstrated a tremendous 
amount of interest in this area of concern. I recognize Mr. 
Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I want to thank you 
for holding the hearing.
    I am very excited about the prospects to increase the use 
of telecommuting and teleworking within the Federal Government 
and serve as the kind of model which you alluded to, which the 
Federal Government can be, joining with others in private 
industry that have done so much in this area.
    I had the privilege of being able to offer earlier this 
year an amendment onto the energy bill that would try to 
promote this sort of thing, and I want to thank the chairman 
for taking the initiative to introduce this in a stand-alone 
form, as he will be doing and I will be joining with him in 
that.
    I also want to acknowledge, as he has done, Congressman 
Wolf's efforts over many years to bring this issue to the 
forefront. We look forward to working with him, as well.
    I represent a District which has a tremendous number of 
Federal employees who commute in and out of the District of 
Columbia every day, and I have heard from many of them about 
the promise of telecommuting and what a difference it can make.
    My original approach to this issue was with respect to how 
the Federal Government can help reduce its carbon footprint by 
promoting teleworking, but obviously the benefits go far beyond 
that. There are many, many dimensions to the issue.
    In Maryland we are about to absorb many new jobs as a 
result of Base Realignment and Closure Commission 
recommendations. I think that telecommuting can help both in 
that transition as well as over the long term as the number of 
jobs increases and, frankly, as the degree of congestion in 
many parts of my District also increases. That all lends itself 
to the need for telecommuting.
    I, myself, commute every day. I was saying this morning to 
somebody that until we can vote remotely I may not, myself, be 
able to take advantage of the telecommuting opportunity, but I 
expect that folks in my office can eventually, and bring it in 
to the legislative branch, and certainly there are so many in 
the Federal executive branch that can take advantage of this. 
But I understand what it means to be caught in gridlock, and so 
that is certainly a perspective that I bring.
    The opportunity to save money, the opportunity to promote 
more flexibility in the work force and in work arrangements, 
all of that is part of the discussion that we are going to have 
today, and so I think it is a tremendous win/win opportunity if 
we pursue this in a more formal way by looking at how to enact 
and then implement policies, have people that are dedicated in 
their focus to the telework option within Federal agencies.
    I agree with the chairman that the Federal Government is in 
a position to really model this in some innovative and creative 
ways. I know many agencies have begun to do that, but we can, 
of course, do more across the board.
    I am looking forward very much to hearing the testimony of 
all of our witnesses today and again thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Mr. Sarbanes.
    We are now prepared to hear from our witnesses, but let me 
just indicate that we had hoped to have Representative Frank 
Wolf as our first witness because he has been a pioneer in 
promoting these concepts and ideas and, unfortunately, could 
not be here at the moment, and so he might still get an 
opportunity to come in, and if he is able to do so then we 
would look forward to hearing from him.
    Our panelists are, first of all, Mr. Daniel Green, who is 
the Deputy Associate Director of the Center for Employee and 
Family Support Policy for the Office of Personnel Management. 
Mr. Green is currently responsible for developing Federal 
employee benefits policy covering the multi-billion-dollar 
retirement and insurance programs administered by OPM. He is 
also responsible for promoting important employee and family 
support programs like telework.
    Mr. Green, thank you so much.
    We have Mr. Stan Kaczmarczyk. He is the current Acting 
Deputy Associate Administrator for the U.S. General Services 
Administration's Office of Government-Wide Policy. Mr. 
Kaczmarczyk has policymaking authority over several key areas, 
including personal and real property, travel and 
transportation, information technology, regulatory information, 
and use of Federal advisory committees.
    Ms. Bernice Steinhardt is the Director of Strategic Issues 
and has held a variety of leadership positions within the U.S. 
Government Accountability Office. Congress' analytic and 
investigative arm. Ms. Steinhardt is responsible for examining 
Government-wide management issues and supporting the Federal 
Government's transformation to meet 21st century challenges.
    It is the custom and tradition of this committee, as well 
as it is others, to swear in witnesses, and so if you would 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that each one 
of the witnesses answered in the affirmative.
    We thank you very much, and we will begin with you, Mr. 
Green.

   STATEMENTS OF DANIEL A. GREEN, DEPUTY ASSOCIATE DIRECTOR, 
   CENTER FOR EMPLOYEE AND FAMILY SUPPORT POLICY, OFFICE OF 
   PERSONNEL MANAGEMENT; STAN KACZMARCZYK, PRINCIPAL DEPUTY 
  ASSOCIATE ADMINISTRATOR FOR GOVERNMENT-WIDE POLICY, GENERAL 
  SERVICES ADMINISTRATION; AND BERNICE STEINHARDT, DIRECTOR, 
       STRATEGIC ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

                  STATEMENT OF DANIEL A. GREEN

    Mr. Green. Thank you, sir. Mr. Chairman and members of the 
subcommittee, I am pleased to be here today to discuss OPM's 
role in promoting telework in the Federal Government.
    Telework and other work life flexibilities are important 
tools used by agencies to recruit and retain employees. 
Telework is also an important component of emergency 
preparedness, helping ensure the Federal Government can 
continue core operations from remote locations in terms of a 
short or long-term crisis.
    According to the latest numbers gathered by OPM, 49 of 8 
executive branch agencies had more employees teleworking in 
2006 compared to 2005. Those who do telework are teleworking 
relatively frequently. In fact, over half of them are working 
from an alternative work site at least once per week.
    Despite these successes, there was a slight decrease in the 
total number of teleworkers reported Government-wide from 
119,248 in 2005 to approximately 111,000 in 2006. This slight 
overall reduction was largely due to decreased numbers of 
teleworkers reported at a few large agencies.
    According to information OPM was given by these agencies, 
there are two major reasons for the decrease: data gathering 
reporting problems and data security concerns. We found that 
the internal tracking systems used to gather data vary widely 
in their efficiency and effectiveness, leading to 
inconsistencies in the information reported to OPM year to 
year. Agencies are developing internal systems to improve their 
data collection.
    The second major issue is data security, which had an 
impact on actual telework participation. Agencies have 
justifiably become increasingly concerned with the security of 
information systems overall and may perceive remote access as a 
particularly problematic.
    We are working on various initiatives to address this issue 
and to further explore what security measures are currently in 
place and what recommendations need to be made to achieve a 
telework environment that maintains data security.
    Balancing these challenges are positive drivers for 
telework that resulted in program growth for the majority of 
agencies in 2006. One major driver is the recognition by many 
organizations that telework is a valuable tool to ensure that 
vital operations continue during a continuity of operations or 
pandemic influenza event. OPM strongly recommends in our 
telework guide that agencies have an effective routine telework 
program and that as many employees as possible should have 
telework capability.
    In my written testimony I provide information on how three 
agencies--Department of Labor, U.S. International Trade 
Consumer magazine, and OPM itself--have used telework as a 
means to meet their individual operational objectives.
    Telework is an important tool in emergency planning, and we 
continue to support agencies in their efforts to integrate 
telework into COOP and pandemic influenza preparation.
    In responding to President Bush's implementation plan for 
the national strategy for pandemic influenza, OPM issued a 
completely new guide to telework in the Federal Government on 
August 3, 2006. The guide was distributed to all Federal 
agencies and is posted on the inter-agency telework Web site, 
telework.gov.
    OPM integrates telework in its pandemic planning and 
guidance briefings for agencies and town hall meetings for 
Federal employees. OPM staff visits Federal managers, H.R., and 
technical personnel and others to provide a comprehensive 
review of policy regarding pandemic preparedness.
    We are pursuing many activities to foster telework 
utilization. I would especially like to point out our 
collaboration with the Chief Human Capital Officer's Counsel on 
several telework-related activities.
    In February 2007, OPM staff helped organize the Chico 
Training Academy session focused on agency telework best 
practices. There were over 50 attendees representing more than 
20 agencies at this session, which highlighted the telework 
efforts of three Federal agencies.
    In addition, OPM is working with the CHCO Counsel Emergency 
Preparedness Subcommittee exploring how best to refine current 
telework definitions and enhance agency metrics in order to 
strengthen the program.
    Mr. Chairman and members of the subcommittee, this 
concludes my remarks. I would be pleased to respond to any 
questions you may have.
    [The prepared statement of Mr. Green follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you.
    We will proceed to Mr. Kaczmarczyk.

                 STATEMENT OF STAN KACZMARCZYK

    Mr. Kaczmarczyk. Thank you. Mr. Chairman, Ranking Minority 
Member Marchant, and members of the subcommittee, I appreciate 
the opportunity to appear before you today to discuss the 
General Services Administration's views on how telework 
programs succeed.
    Successful implementation of telework in the Federal 
Government requires effective tools, useful guidance, proactive 
senior leadership, and flexible implementation.
    Telework programs succeed when they have the basic tools 
necessary to complete the program. Legislation that would 
remove barriers to Federal telework is welcomed, and we look 
forward to working with Congress on appropriate telework 
legislation.
    Another factor leading to successful telework is useful 
guidance. Last year GSA published Federal Management Regulation 
Bulletin 2006-B-3, which established guidelines for alternative 
workplace arrangements in the Federal Government. This year we 
followed up with FMR Bulletin 2007-B-1 covering technology, 
security, and privacy issues for telework. This document helped 
establish that telework, when appropriately implemented, can 
maintain information security.
    Successful programs ensure that the entire work force is 
aware of telework laws, policies, benefits, and practices. To 
that end, our efforts include a very active listserve and Web 
site, along with videos, promotional materials, and press 
releases.
    Another critical ingredient in successful programs is 
aggressive top-level involvement and support. A good example of 
this is the recently issued challenge by our Administrator, 
Lurita Doan. She is pushing GSA to lead by example and to 
increase the number of eligible employees participating in 
telework. The goal is to have 50 percent of eligible GSA 
employees teleworking at least 1 or 2 days per week by the end 
of calendar year 2010.
    In furtherance of leading by example and prior to any 
legislative requirement, GSA will appoint a telework managing 
officer, as called for in both the Senate and House versions of 
the Telework Enhancement Act of 2007.
    Proactively demonstrating that she is walking the talk, 
Administrator Doan recently spent the day working at one of the 
GSA-sponsored telework centers and announced plans to continue 
teleworking every month.
    We encourage other agencies to challenge themselves to use 
telework to its greatest advantage. We will support their 
efforts through workplace solutions offered by our Federal 
Acquisition Service and our Public Building Service.
    An examination of telework programs shows that flexibility 
implementation is another key to making programs a success. 
Along these lines, Congress and GSA established the telework 
center's pilot project in the Washington, DC, metropolitan 
area. These centers offer Federal workers a convenient and 
effective telework alternative to working at home and are 
located between 16 and 80 miles from downtown D.C. Telework 
centers add the program flexibility needed to make telework a 
successful option for those who want to avoid the commute but 
can't work at home.
    To illustrate, I would like to show you our new flash 
video, the first flash video ever to be posted on GSA's Web 
site, immediately after my conclusion.
    In conclusion, GSA believes that successful Federal 
telework programs can be cost effective, significantly reduce 
traffic, and improve air quality. They can help improve 
continuity of operations, recruitment and retention of staff, 
and quality of work for our Federal work force.
    Characteristics of successful programs include: effective 
tools, useful guidance, proactive senior leadership, and 
flexible implementation.
    I would be happy to answer any questions you may have.
    Now we would like to show the video.
    [Video presentation.]
    [The prepared statement of Mr. Kaczmarczyk follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. 
Kaczmarczyk. As a matter of fact, your demonstration reminds me 
of the comment that is often made at my church that I attend, 
where people say, I'd rather see a sermon than hear one any 
day. So we thank you very much.
    We will to go Ms. Steinhardt.

                STATEMENT OF BERNICE STEINHARDT

    Ms. Steinhardt. It is going to be hard to follow that.
    Thank you very much, Mr. Chairman and Mr. Marchant and Mr. 
Sarbanes. We appreciate the opportunity to be here today to 
talk about the Federal Government's efforts to promote telework 
for its employees.
    Over the years we have reported on Federal telework 
programs, and over those years it has been clear to us that the 
Congress has been rather frustrated in its efforts to try to 
make telework a more widely used tool.
    In our view, though, that frustration is likely to continue 
until agencies bring a more results-oriented approach to 
managing their telework programs.
    What do I mean by that?
    Right now Congress has quite a few aspirations for 
telework, and OPM and the agencies have incorporated those 
aspirations into their policies, and everyone is looking to 
telework to yield a whole variety of benefits, some of which 
were mentioned in the video, others have been talked about this 
morning. Agencies are looking to telework to recruit and retain 
a skilled work force, to ease traffic congestion and improve 
quality of life, to provide for continuity of operations in 
emergency events, and so on. But all of these aspirations have 
never been translated into program goals. No one is managing to 
them, no one is setting targets for them, and there is not a 
lot of information that is being collected to help in 
evaluating telework programs.
    When we did a study several years ago of four agencies' 
telework programs, we identified 24 key practices that agencies 
should follow, based on industry best practice. And four of 
those practices had to do with managing for results. But these 
practices were among the least employed, and none of the 
agencies were fully implementing them. None of them had goals 
or targets or information for evaluation, and without this 
information they had no way of making improvements, either.
    Even in the most basic program performance measures we 
found problems. In a study we did in 2005 in which we looked at 
five other agencies, we found that most of them were measuring 
employee participation based on their potential to telework. 
They were counting agreements for telework, rather than 
counting who was actually teleworking or how frequently.
    And for even more basic measures, like eligibility, 
agencies used such differing methods of calculation that there 
is no really meaningful picture when you look across the 
Federal Government. As a result, we recommended in that report 
that Congress determine ways to promote more consistent 
definitions and measurements related to telework.
    I would note that the committee's survey found very similar 
findings: that there was a need for much greater consistency 
and more meaningful measures.
    We also went on to suggest that Congress might want to have 
OPM work with the Chief Human Capital Officers Council to come 
up with a set of definitions and measures that would allow for 
a more meaningful assessment of progress in telework programs.
    Some of the information could be improved by more 
consistent definitions, like eligibility. Every agency sets its 
own programs and policies to meet its own local conditions and 
circumstances, but there shouldn't be widely disparate terms 
for basic things like eligibility.
    Some of this effort would take additional effort to 
collect. For example, on actual usage of telework, some 
agencies have now put into place time and attendance systems 
that can measure when people are actually teleworking, the 
extent to which they are actually working. Others are working 
on it. Others are not. Some information might be already 
available through existing sources. The Federal benefits survey 
and Federal human capital survey, for example, already ask 
Federal employees about their satisfaction with telework.
    In any case, it is our view that OPM and the CHCO Council 
are very well positioned to sort through these issues and to 
consider what information would be most useful to them as they 
try to manage for results.
    I want to close by just saying that, as we have in the 
past, we would be pleased to continue to work with you and your 
staffs as you make this very important effort to introduce new 
legislation.
    Thanks very much.
    [The prepared statement of Ms. Steinhardt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Ms. Steinhardt.
    I want to thank each one of you for your testimony. We will 
begin with a round of questions, and I will begin with you, Mr. 
Green.
    Could you describe how successful OPM has been in 
increasing the awareness and comfort level of managers over the 
past, say, 2 or 3 years?
    Mr. Green. Yes, sir. I don't have metrics to show a 
quantitative increase in satisfaction. I can talk about the 
things that we have done. I think the most important document 
that we have produced is the Telework Guide which is on our Web 
site and was widely distributed to all Federal agencies. That 
guide does a couple of things. The primary point is that it is 
directed straight at managers of teleworkers and employees 
wanting to telework, and gives them off-the-shoulder, 
straightforward information on how to maximize that experience.
    The other thing that the Telework Guide does is it talks 
about issues of importance to agencies and furthering their 
missions and helping them to integrate telework in some 
important, critical areas, most specifically in their 
continuity of operations planning and pandemic planning and in 
dealing with issues of security and protection of data while 
working remotely.
    That is the most important thing we have done. We meet with 
agencies regularly. We are working with the CHCO Council, as 
Ms. Steinhardt alluded, to develop matrix and to expand and 
discuss issues of definitions, of matrix for measuring 
telework, and for ways to promote a better understanding of 
what telework can accomplish, what the issues are involving 
telework, and how to deal with them.
    Mr. Davis of Illinois. It has come to the committee's 
attention that OPM gave notice to its employees that effective 
October 29, 2007 that your telework program has been suspended. 
Could you explain to us why OPM has suspended its program?
    Mr. Green. Well, that is not actually correct. The program 
is not suspended; however, telework has been temporarily 
suspended or will be temporarily suspended for some employees 
who are currently teleworking. The overall program is still 
active, but the employees who are involved in retirement claims 
operations will be brought in on a temporary basis for a couple 
of reasons. One is, as you know, we are going through a 
retirement systems modernization effort, and involved in that 
will have to be retraining of employees, and those employees 
will be needed, as well, to transition from the current legacy 
systems to the new RSM.
    But of more immediate concern to Director Springer and to 
managers at OPM is the security of personal identifiable 
information, and the issue there is the retirement case files, 
which have a lot of personal information, of course, about 
people, are taken home and worked on when people telework. So 
management wants to find ways of protecting that information, 
and once that is done then there will be a re-emergence of 
telework, I am sure.
    I think, frankly, that RSM will be an alternate, huge help 
in protecting data, because we will be in the electronic mode 
and there won't be this same reliance on paper in the future.
    Mr. Davis of Illinois. So, at best, one could then say that 
there is a temporary suspension of some aspects of the program 
while it undergoes review to make adjustments that OPM feels is 
necessary?
    Mr. Green. Yes, sir. Exactly.
    Mr. Davis of Illinois. All right. Let me just ask Mr. 
Kaczmarczyk, what policies has the GSA put in place to help 
ensure that personally identifiable information is adequately 
protected and how can you assure that agency networks are 
adequately protected when people are doing telework?
    Mr. Kaczmarczyk. Sure. Well, as an agency we annually 
inventory all of our IT systems that deal with personally 
identifiable information to make sure that the program managers 
are aware of their responsibilities.
    As far as teleworkers go, teleworkers, of course, receive 
IT security training as teleworkers, but also as agency 
employees, because we are dealing with the same systems in the 
office that we are dealing with when we work from home, so 
everybody gets annual IT training, everybody is aware of the 
issues, and there are technological solutions for teleworkers 
with virtual private networks so you can work at home or from a 
telework center securely and maintain the same security over 
personally identifiable information from a remote location as 
you can in the office.
    The general answer is that the policies are in place, the 
technology is there to support it, and the issue is the same, 
whether you are working from the office or working from another 
location.
    Mr. Davis of Illinois. And you are comfortable that this is 
working well and will continue to work well?
    Mr. Kaczmarczyk. In GSA, yes.
    Mr. Davis of Illinois. Thank you very much.
    I am going to stop and yield to Mr. Marchant.
    Mr. Marchant. This question will be for any of the three 
panelists. Tracking worker productivity while under the 
telework program seems to vary between agencies and seems to be 
the major issue when going into teleworking by supervisors and 
the administration. Which agency do you believe has established 
the fairest system to the employee and to the agency in 
tracking worker productivity? Or is there a working system out 
there to track productivity?
    Mr. Green. I would like to take a stab at that, if I may. 
OPM has advocated for a number of years, and it is not unusual 
in doing so, that managers manage by results. Those results can 
be measured by using performance standards that track results 
and not processor or personnel aspects. So those results can be 
measured whether a person is working at the office, remotely at 
a telework center, or wherever. Therefore, that is really the 
answer for a manager that is concerned about whether the 
employee is working when the manager is watching them or not 
watching them. What did they accomplish? Did they meet their 
objectives?
    Ms. Steinhardt. If I can add on to that, I completely agree 
with Mr. Green. The real issue is creating management cultures 
that are focused on results, on what our goals are and what we 
need to accomplish, and not where a person is and whether you 
can see them.
    But that is exactly why we feel so strongly about the 
telework, the way the telework program is being managed now, 
because you really can't manage for results until you have 
clear goals for what you are trying to accomplish with 
telework.
    If you want to increase recruitment and retention, if you 
want to improve employee morale, you need to have goals for 
those and you need to use telework as a tool that can help you 
accomplish them. You need to set performance expectations for 
managers so that they know what they are being held accountable 
for. You need to cascade those expectations down to individual 
staff so that they know what they are expected to do.
    Telework is just one way to operate. It really needs to be 
viewed in the context of what the agency is trying to 
accomplish.
    Mr. Kaczmarczyk. I agree with that.
    Mr. Marchant. Thank you. Go ahead.
    Mr. Kaczmarczyk. I agree with the two witnesses. There are 
good managers and bad managers, there are productive employees 
and less-than-productive employees, and issues are the same no 
matter where the work is being carried out. Sometimes, as a way 
of maybe discouraging telework, you will hear that maybe a 
manager requires a teleworker to report in advance exactly 
everything he or she is going to work on for that 1 day at 
home. You wouldn't dream of asking that the other 4 days that 
the person is in the office. We need to have the mind set that 
the work is independent from the place where it is done.
    Mr. Marchant. OK. Thank you.
    Mr. Kaczmarczyk. Thanks.
    Mr. Davis of Illinois. Mr. Sarbanes.
    Mr. Sarbanes. Thank you.
    Can you describe what it means, I guess Mr. Green, when you 
talk about training somebody in teleworking? Just give me a 
sense of what you envision. What does it mean to train a person 
in telework or offer them best practices, or what have you?
    Mr. Green. Certainly. Most of it is rather mundane, 
frankly. It is things like, again, managing to results, and 
that an employee understands that they are responsible for 
their work, and that doesn't change, whether they are working 
remotely or working in the office. They have a responsibility 
to do their job. I mean, that is basically it.
    The other things, though, are practically things like there 
should be a safety evaluation done of the work site, whether it 
is at home or the telework center, to make sure that they are 
working in a safe and secure environment; that information they 
do bring home or use on their computer, whether it is the VPN 
side or not, is protected; that there is an understanding--and 
we recommend written telework agreements to support this--that 
there is an understanding between the manager and the employee 
as to when they will be teleworking, how they will be able to 
communicate with each other while teleworking, and what the 
expectations are, not necessarily a blow-by-blow minute of what 
I am going to be doing while I am teleworking, but generally 
what I will be working on and, as I say, most especially being 
able to communicate with the employee during the day.
    Mr. Sarbanes. So, Ms. Steinhardt, I guess the concept of 
the manager being trained in telework is as important as the 
employee being trained. And would you regard it as useful to 
think in terms of there being kind of a transition period or 
having workers transition to telecommuting status during which 
transition they would be understanding better the managing for 
results imperative, and so forth?
    Ms. Steinhardt. That is a good question. I don't know that 
I would envision necessarily a transition period. Clearly, 
managers need to know what the expectations are, as well, but I 
think the key here is really creating a culture within the 
organization. That obviously is going to take a while to occur. 
But it needs to be that everyone in an organization needs to 
understand that they are working toward something. Telework 
shouldn't be regarded as an employee reward. That is not what 
it is about at all. It is a way to get work done, and it needs 
to be viewed as a tool to accomplish some organizational goal.
    Managers do need to understand that, but it is part of a 
larger kind of change in the way that they view their work. And 
managers need to be held accountable for what the organization 
is trying to accomplish through telework. It is not just the 
employee; it is managers, as well.
    Mr. Sarbanes. Thank you. And Mr. Kaczmarczyk, is there a 
difference between a telework center and a satellite work 
location? I am trying to understand. In other words, could you 
have a satellite office that, itself, was the hub of 
telecommuters who were working from home, as distinguished from 
a telework center that people go to during the day and then 
they are teleworking from that center to the main agency 
location? Or am I dancing on the head of a pin here?
    Mr. Kaczmarczyk. No. Satellite centers are more common in 
the private sector than in the Government, but a satellite 
center might be set up by a corporation if they had a 
concentration of employees in a geographic area a certain 
distance from the main office, and then those employees would 
report to that satellite center to work every day.
    Now, if those responsibilities included some kind of client 
service or sales function, maybe the satellite center is their 
main office and they do ``telecommute'' while they are on the 
road. I guess they could also work from home, decide to work 
from home as well as the satellite centers for continuity of 
operations.
    The concept of the telework center is that every agency can 
use them, so you have 1 day a week, 2 days a week, different 
Federal employees from different agencies using a center that 
is geographically convenient to their home.
    Mr. Sarbanes. OK. All right. Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you.
    Ms. Steinhardt, you have placed a great deal of emphasis on 
having clear goals as a way to facilitate the utilization of 
teleworking. Do you think that it would be very helpful to have 
Government-wide goals that every agency would be expected to 
adhere to or pursue, as well as individual agency goals that 
would be left to the latitude of the agencies, themselves?
    Ms. Steinhardt. That is a really good question. I would say 
yes, there are some goals that are not necessarily unique to an 
agency. Some are. For example, recruitment and retention, 
employee morale--those I think are related. Certainly every 
agency has some effort to attract a skilled work force, to 
maintain high employee morale. But the conditions vary agency 
to agency.
    But commute time, for example, I would think that all 
agencies, that is a Government-wide issue, and so reducing 
congestion, reducing energy use might be Government-wide goals. 
They are not specific to any one agency. That is just by way of 
example.
    Mr. Davis of Illinois. In your testimony you also mention 
awareness training as a way of helping facilitate movement. Are 
you aware of any results or how much help that might have been 
or appear to be?
    Ms. Steinhardt. I am not aware that there have been any 
kinds of evaluations there. I would say, just anecdotally, 
based on GAO's own experience, there clearly needs to be clear 
guidance on what telework is and under what conditions it is 
available to employees and the kinds of procedures, rules, 
policies they need to follow.
    But I think one of the best measures to promote telework is 
actual experience with teleworking, and particularly among 
staff who believe that it would be helpful to them on an 
intermittent basis, you know, where they might occasionally 
want to telework. Once people become familiar with it, both 
employees and managers, it seems to be much more widely 
accepted. People know how to use it, and then people may 
actually start using telework on a more regular basis.
    Mr. Davis of Illinois. Mr. Kaczmarczyk, you mention in your 
testimony that you will propose legislation to address travel 
pay associated with long-distance telework. Could you share 
some more thinking about that?
    Mr. Kaczmarczyk. Yes. This is mostly based on the 
experience of an agency such as Patent and Trademark Office, 
that employs a lot of full-time teleworkers from other 
locations, and they find that--well, PTO is always one of the 
best examples because they have cases and processing, and you 
have widgets that you can measure for productivity, so they can 
demonstrate that people who work from home actually produce 
more widgets, get through more cases over the course of a week 
than people who are in the office, so they have the opportunity 
to hire people who have the right skill set but who live 
elsewhere out of the Washington, DC, area or who would like to 
move out of the Washington, DC, area.
    So, for example, if somebody lived in San Francisco and 
wanted to telecommute full time out of their home to PTO in 
Crystal City, that can be done. The issue becomes if the person 
needs to come into the office periodically for training or 
orientation. That then becomes a travel expense that the agency 
has to pay because their home office is San Francisco and not 
in Crystal City.
    Now, for one person it is not a big deal, but if you had 
several hundred people in the situation and you had to bring 
them all in periodically for orientation or training or just 
for a face to face meeting, it could be a considerable extra 
travel expense to the agency, so it is felt that acts as a 
deterrent to encouraging these types of virtual work 
arrangements.
    Mr. Davis of Illinois. It seems to me that Administrator 
Doan is a bit more aggressive than some other agency directors 
and agency heads and has actually laid out some pretty 
aggressive ideas and goals. Does this include the establishment 
of telework centers, as well?
    Mr. Kaczmarczyk. She is very much interested in promoting 
telework centers. The first step is to increase the utilization 
of our existing 14 centers, and she plans to telecommute 
herself at each one of them and to invite other senior agency 
leaders to join here on these days and see for themselves how 
it is.
    She also plans for GSA to centralize the funding for 
telework centers so that there will be a pot of money that will 
buy a certain number of seats, and then GSA managers won't have 
a financial constraint, themselves. It won't come out of their 
program budget. They can take advantage of the telework 
centers.
    Once we get the current 14 telework centers fully utilized, 
then we would be happy to look at other locations, as 
warranted.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Marchant, do you have any additional questions?
    Mr. Marchant. I don't have any additional questions for 
this panel. Thank you.
    Mr. Davis of Illinois. Mr. Sarbanes, do you have any?
    Mr. Sarbanes. Just a couple, real quick.
    Are you aware of any agencies that have advanced enough 
through this that they are actually in their recruitment of new 
employees holding this out as one of the options that is 
available as a way of motivating the hirings?
    Mr. Chairman, I ask that because I know that the 
Partnership for Public Service just launched this major effort 
to recruit, I think in the next couple of years, 200,000 or so 
mission critical Federal employees. I would imagine that the 
ability to hold that out as an opportunity to folks might help 
with recruitment, so I was curious about that.
    Ms. Steinhardt. If I can offer GAO as an example----
    Mr. Sarbanes. Sure.
    Ms. Steinhardt [continuing]. We include telework, flexible 
work arrangements including telework, as part of our 
recruitment materials, and we actually administer a survey to 
new staff to find out the kinds of things that attract them to 
the agency, and those flexible work arrangements are among the 
top 10 reasons, so they remain a key part of our recruitment 
and retention strategy.
    Mr. Sarbanes. Great.
    Mr. Green. OPM, itself, includes teleworking capability in 
its recruitment efforts. I would also point out, in my 
testimony I speak a little bit about the efforts of the U.S. 
International Trade Commission and how they are using telework 
as a recruitment tool, as well. And there are other examples.
    Mr. Kaczmarczyk. Administrator Doan has required that all 
the managers go through all the position descriptions in the 
entire agency and designate them as to whether they are 
basically eligible or not for telework, and then as vacancies 
come up against those position descriptions the actual job 
announcement will note that it is a telework-eligible position.
    Mr. Sarbanes. Great. Thank you.
    Mr. Davis of Illinois. Thank you very much.
    Let me thank this panel. We appreciate your being here, 
your testimony, and you are excused. Thank you.
    While we are preparing for panel three I will go ahead with 
the introduction of our panelists.
    Ms. Margaret J.A. Peterlin was sworn in as Deputy Under 
Secretary of Commerce, Intellectual Property, and Deputy 
Director of the U.S. Patent and Trademark Office, USPTO, in 
April 2007. As Deputy Director of the USPTO, she administers 
the laws of granting patents and trademarks and the day-to-day 
management of the $1.9 billion agency and its more than 8,500 
employees.
    Mr. Lee J. Lofthus is the Assistant Attorney General for 
the Department of Justice. He is responsible for Department-
wide financial reporting, budget formulation and execution, 
accounting operations, assets future fund, operational support, 
procurement, and debt management support. He also oversees 
Department-wide facilities management, human resources, 
business services, and planning.
    Let me welcome both of you. It is our custom and tradition, 
if you would stand to be sworn in and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    We thank you very much for being here with us. We will 
proceed and begin with Ms. Peterlin.

STATEMENTS OF MARGARET J.A. PETERLIN, DEPUTY UNDER SECRETARY OF 
 COMMERCE FOR INTELLECTUAL PROPERTY AND DEPUTY DIRECTOR, U.S. 
  PATENT AND TRADEMARK OFFICE; AND LEE J. LOFTHUS, ASSISTANT 
   ATTORNEY GENERAL FOR ADMINISTRATION, DEPARTMENT OF JUSTICE

              STATEMENT OF MARGARET J.A. PETERLIN

    Ms. Peterlin. Thank you, Mr. Chairman, Ranking Member 
Marchant, Mr. Sarbanes, and the subcommittee and distinguished 
guests.
    I appreciate the opportunity to be here today to discuss 
the USPTO's telework programs. I appreciate the opportunity to 
discuss them because it is very important that leaders of 
agencies work to balance home life and work requirements.
    If I may take a moment, I would just like to recognize my 
sister, Megan Quarter, and my fiance, Dan Kinnery, who often 
remind me to make sure that I have a work life balance.
    On behalf of the agency, I thank the subcommittee for 
taking a careful look at telework issues in the 110th Congress 
and look forward to working with you in the future.
    The success of the USPTO telework programs is driven by 
top-level agency support and clearly defined then communicated 
performance measures. We trust our employees to perform their 
responsibilities without micromanaging observations. These are 
fundamental principles that work well in the telework 
environment.
    For very practical reasons, the USPTO is changing the 
boundaries of old workplace patterns. Our vision is for our 
employees to perform their responsibilities regardless of their 
physical location. As a result, the telework program has led to 
improved employee retention, higher productivity, and increased 
morale.
    Over the past 10 years we have identified a number of 
important guiding principles. These are our lessons for 
creating and sustaining a successful two program. They are: 
First, a successful telework program is contingent upon careful 
planning. We started small, with a pilot of only 18 examining 
attorneys, and continually assessed our progress along the way. 
Over the course of the last 10 years, we have expanded our 
telework initiative and currently have 3,609 employees 
participating, which is 40.7 percent of total positions at the 
USPTO.
    Second, the USPTO management views telework as a corporate 
business strategy and human capital flexibility.
    Third, our managers build and maintain a relationship of 
trust with employees, whether they are working on the 
Alexandria campus or at home. Since the nature of patent and 
trademark work lends itself to telework, our managers are very 
comfortable with results-based management techniques. They also 
understand the relevance of devising and clearly communicating 
performance measures. Managers and employees set and agree upon 
a list of goals ensuring a mutual understanding of 
expectations.
    Fourth, involving labor unions in the development of 
telework programs engages represented employees and increases 
the likelihood of union support. At the beginning of our first 
pilot program, we initiated a labor and management working 
group to develop guidelines, procedures, and selection criteria 
for telework participation. Today the group meets on a regular 
basis addressing arising telework program issues.
    Fifth, at the USPTO we believe that training and education 
are a necessary precondition for and sustaining requirement of 
a successful program. Before being granted the privilege of 
teleworking, employees receive non-IT and IT management 
training.
    Sixth, having a talented telework coordinator at the USPTO 
has proven extremely beneficial to our organization. Telework 
is a winning proposal with numerous benefits. For many 
employees, telework means less time on the road, which also 
translates to lower auto emissions, gas consumption, and 
reduced traffic congestion. USPTO employees, alone, who 
telework collectively save more than 613,000 gallons of gas per 
year and save more than $1.8 million annually in fuel costs. 
Additionally, there is combined reduction in emissions of more 
than 9,600 tons per year.
    For the agency, the benefits have included: retention of 
seasons, high-quality employees; maximizing use of space; 
avoiding the cost of acquiring additional real estate as the 
agency has grown; and maintaining high performance. Performance 
has been measured over the years, and we have been able to 
compare our performance and quality standards both inside and 
outside the telework program.
    Over the past decade, the USPTO has realized the benefits 
of implementing a robust telework program and has demonstrated 
that telework is a business strategy that works for our 
employees, our agency, and the economy.
    I thank you very much for the opportunity to testify before 
the subcommittee on this issue.
    [The prepared statement of Ms. Peterlin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much.
    Before I go to Mr. Lofthus, I would like to just take a 
moment and acknowledge the presence of two dear friends of mine 
who stopped by. Dr. Herbert B. Slutski, who is the retired 
deputy commissioner of the health department for the city of 
Chicago, retired university professor, and management 
consultant, and his wonderful wife, Maureen, who is a retired 
educator. We are delighted that you both stopped by. Thank you 
very much.
    Mr. Lofthus, would you proceed?

                  STATEMENT OF LEE J. LOFTHUS

    Mr. Lofthus. Thank you. Good morning, Chairman Davis, 
Ranking Member Marchant, and distinguished members of the 
subcommittee. I appreciate the opportunity to appear before you 
this morning to discuss telework.
    The Justice Department was one of the earliest agencies to 
initiate a telework pilot program through our participation in 
the 1990 Federal flexible workplace pilot known as flexiplace. 
That early program, developed by the Office of Personnel 
Management and the General Services Administration, was 
established in response to a recommendation by the President's 
Council on Management Improvement and was implemented with 
support from the White House, Congress, and the major unions 
representing the Federal employees. It was designed to test 
alternatives to the traditional work environment.
    Since that time, DOJ organizations have continued to look 
for opportunities to expand the use of telework where it 
supports the Department's mission; however, an inherent 
challenge to DOJ's ability to expand telework is the law 
enforcement, national security, and intelligence gathering 
nature of what we do.
    We have always recognized the practical reality that 
certain positions--correctional officers in prison, deputy 
marshals in duty in a courtroom, and evidence technicians, for 
example--must perform their duties at specific locations.
    The Department's overall telework participation rate is 
currently at 4 percent of eligible staff. Eight of our non-law-
enforcement components have participation over 6 percent, and 
our law enforcement entities continue to look for ways to 
utilize telework flexibilities.
    The Justice organizations with the top four highest 
participation rates are the Office of Community Oriented 
Policing Services [COPS], at 30 percent; the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives at 21 percent; the Office of 
Justice Programs at 13 percent; and our Civil Division at 12 
percent. Additionally, my own organization has a participation 
rate of over 10 percent.
    Let me briefly describe some of these programs.
    ATF has 504 employees, or 21 percent of its eligible work 
force, teleworking. ATF's success is, in part, attributed to a 
comprehensive communication plan that educates employees and 
managers on how and when telework can best be used to meet the 
ATF mission and support ATF employee efforts to balance work 
and family responsibilities. ATF regularly surveys its managers 
to determine the effectiveness of telework arrangements and to 
obtain ideas on how to further enhance the program.
    The Department's civil division is comprised of over 1,100 
attorneys, paralegals, and support staff, and civil has been 
working successfully to make telework a viable option across 
the division.
    In my organization, as the head of Justice Management 
Division, I can report that we have more than 98 employees on 
telework, over 10 percent of our total JMD work force. My 
organization has everything from attorneys to accounting staff 
paying bills to librarians to painters and the plumbers, so we 
are a good example of a highly diversified organization where 
telework works well in some jobs and less so in others.
    Last week I discussed telework with my senior managers and 
directors as a prelude to supervisory training on telework 
flexibilities we are doing throughout November in my 
organization. We also helped facilitate department-wide 
awareness about telework through our DOJ work life Web site. On 
this site, DOJ managers and employees can learn about telework 
flexibilities and how to participate.
    Telework is an important part of three major Department 
initiatives: human capital as it relates to recruiting and 
retaining a diverse and talented work force for the 21st 
century; continuity of operations [COOP]; and our pandemic 
planning efforts.
    In closing, at Justice we are trying to use telework where 
it makes sense in a law enforcement and national security 
organization. At the same time, we are trying to use telework 
without opening ourselves to increasing cyber-threats to our 
systems, networks, and the critical national security, law 
enforcement, and personally identifiable information contained 
in those systems and networks.
    Mr. Chairman, once again thank you for the opportunity to 
speak this morning. I would be pleased to answer any questions 
you or the panel may have.
    Thank you.
    [The prepared statement of Mr. Lofthus follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you. Thank you very much, Mr. 
Lofthus. We will proceed with questions.
    Let me just begin with you, Ms. Peterlin.
    What position classifications are eligible to telework at 
the Patent and Trademark Office?
    Ms. Peterlin. Thank you, Mr. Chairman. We have 17 programs 
at the U.S. Patent and Trademark Office, because we have found 
that, based on the work that our employees are doing, we may 
need some flexibility. But if you look at our two largest 
programs, the eligibility requirements are quite consistent, 
and that is the employee needs to be on a full-time status, 
they need to have a fully successful rating, they need to 
demonstrate the ability to work independently, they need to 
have no performance or disciplinary actions against them, and 
they need to have high-speed broadband internet at home.
    So those generally who would be ineligible then, sir, would 
be those whose primary responsibilities include interaction 
with internal employees or customers.
    Mr. Davis of Illinois. And so you have a level of comfort 
that the individuals who are eligible are going to be able to 
function at a pretty high level without supervision in a sense, 
or certain level of supervision?
    Ms. Peterlin. Yes, sir. Certainly at the USPTO it is our 
hope that our managers are still engaged, very engaged with our 
employees who are teleworking, so that type of supervision 
would still be ongoing.
    In our trademarks business unit, that would mean you have 
full signatory authority, that you can make the final 
determination about whether a trademark, like Coca-Cola, should 
or should not be registered, because we want to make sure that 
our employees have the sufficient training and experience that 
we are setting them up for success, and then everyone in our 
managers and our employees participate in the title work 
training program, and that gives us additional confidence.
    Mr. Davis of Illinois. I wish all of my employees were like 
that. I think that you have one of the more successful programs 
and activities. But could you also explain why the USPTO has 
been so successful at teleworking?
    Ms. Peterlin. Yes, sir. I appreciate the question because I 
think if you had called us to testify 10 years ago we would 
have a different story, sir. We would say that we are embarking 
on it and we would only have had 18 examining attorneys. I 
think the reason why 10 years later we are very grateful to be 
described as a success story is because we have very carefully 
progressed, assessed the results. We started small, we assessed 
our results, we implemented training, we implemented the 
necessary IT security, and we kept pushing ourselves. We kept 
saying these results are great. We are getting 99 percent of 
return on our surveys with employees saying, I feel better 
about my job. We have productivity increases of 10 percent in 
our patents and trademark area. So we kept seeing excellent 
results as we became more and more confident over time.
    So I think our success today is because we were willing to 
start, and then the successes kept building one on the other.
    That being said, sir, certainly there have been challenges 
along the way, and some managers needed to be brought to the 
issue and some employees needed to gain comfort in teleworking.
    Mr. Davis of Illinois. What advice would you give to other 
agencies, if you had the opportunity to do so, to increase 
their telework numbers?
    Ms. Peterlin. Sir, I think the best advice is always the 
advice that taps into a specific experience that we have 
confidence in. For us, that has been to have the necessary IT 
security structure in place, have training for managers and 
employees, identify what the management criteria will be.
    If your organization is already managing by results, then 
you are setting the necessary preconditions to have a 
successful telework program. If it is managing by observation, 
then you probably don't have the necessary preconditions in 
place for teleworking.
    So I would say start off by having a good management 
structure, by managing by objectives, and that is successful 
for you whether you are teleworking or not. Then engage your 
managers at every level, both at the senior level of the 
organization and the first level managers. Participate in the 
necessary training. Endorse that training. Then start a 
program, start a pilot program, have assessment metrics for the 
program, survey the individuals, be willing to make adjustments 
to your program, but then move out. Identify the successes.
    One success for the PTO, sir, if I may continue my answer, 
is that we are hiring at the PTO, because of our strategic 
planning in a situation where we found we were under-staffed, 
1,200 examiners per year over 5 years. We have a beautiful new 
campus in Alexandria, VA, which would still not hold the rate 
of increase that we have found necessary for us to meet our 
requirements.
    So without the telework program in place, we would not be 
able to even hire sufficiently to meet our mission 
requirements, so teleworking for us is sort of a bottom line 
flexibility in order for us to achieve our mission.
    Mr. Davis of Illinois. Thank you very much.
    I am going to stop and yield to Mr. Marchant.
    Mr. Marchant. Thank you, Mr. Chairman.
    Do you have a defined, stated goal as to where you want to 
be 10 years from now as far as your telework program?
    Ms. Peterlin. Sir, what we are doing right now at the USPTO 
is we are looking at whether or not we should move to a 
nationwide work force, which would have a distributed work 
force across the United States.
    On our patent side, most of our patent examiners have 
multiple degrees. We have many Ph.D.s. The examination process 
is a very rigorous process. Because we can't make that job any 
easier, the way to retain and attract talented people for us is 
to try to make the job as flexible as possible.
    So our stated goal right now is to look at what a 
nationwide work force would look like. I think if you asked us 
maybe even a year ago we would have said, teleworking is great. 
Since then we have looked at it and said, teleworking may be an 
interim step to a distributed work force as a nationwide work 
force, so that if a major company has a layoff there will be 
many talented people that we would love to have working and 
recruiting at the USPTO, but their church is in another State, 
their family is in another State, and their kids are in high 
school in another State, and so if we can give them an 
opportunity there, that benefits the USPTO and it also develops 
the loyalty to an organization that we would like to benefit 
from.
    So I don't know that our 10-year goal is teleworking as an 
end goal. It may be teleworking as a means to a nationwide work 
force.
    Mr. Marchant. If someone comes to you and they know that 
they are obviously qualified for the job they are applying, and 
they know that you would like to hire them, are they free to 
propose to you the terms of their telework? Can they say, I 
will be happy to take this job, but I want to telework 3 days a 
week? Are they free to do that, or do you hire them based on 
them doing the job in the office and then negotiate the 
telework with them?
    Ms. Peterlin. Thank you for the question. That is something 
that we are looking at in terms of the types of flexibilities 
we can have, because one of our pressures as an organization, 
as I mentioned to the chairman, is a real estate issue and 
whether or not someone in the teleworking program, specifically 
in patents, would still need a dedicated office space, or they 
would be involved in shared office space.
    Unless we are hiring someone who had retired from the PTO 
and decided to come back--and we very fortunately have that. 
You will be hearing from someone in the next panel, sir, who 
was in our trademark side and then left, enjoyed a successful 
time in the private sector, and then decided to come back to 
the PTO and is teleworking. But there is an initial period of 
time, if you are not a return employee, an initial period of 
time so that you can have your full signatory authority, or you 
have your certified exam passed on the patent side before we 
have a telework relationship established. That is, again, to 
make sure that we are setting our employees up for success.
    Mr. Marchant. OK.
    Mr. Lofthus, the percentages you gave on your various 
departments, are most of those people on a 1-day? I mean, of 
the percentages you gave us that participate, what percentage 
of those are 1 day, 2 days, 3 days? Those percentages obviously 
were for any part of the job that they telework, right?
    Mr. Lofthus. Correct. At least half of those folks are on 
1-day-a-week telework schedules. There may be folks who work 
more than 1 day a week. That may also be situational, meaning 
their basic telework schedule may be 1 day a week, but if the 
situation allows it, maybe their supervisor allows them to work 
an additional day, that is more situational than the way we do 
the schedule.
    Mr. Marchant. I think you probably recall last year or the 
year before where someone that I think was involved in some 
kind of a telework project at the VA had taken some hard files 
or had some files at home that were stolen from their home. It 
was not good. There is nothing good about it. Those are 
obviously some of the drawbacks and some of the pitfalls of 
telework. You guys, since that incident have you sat down and 
talked about it and said, OK, this is something about telework 
that we can't afford to have happen, and taken some corrective 
action?
    Mr. Lofthus. That is something that concerns us. While we 
want to encourage telework at the Department of Justice, we 
want to do it even though we are a law enforcement organization 
where some jobs simply are location specific and problem aren't 
that suitable for telework. But, nonetheless, we want to 
encourage telework wherever we can.
    One of the barriers that I see, though, in all candor, is 
the fact of information security and working with classified 
information. The example that you point out is very much in our 
minds as we deal with these issues.
    When we look at the cyber threats that are out there now 
and that are increasing, we want to make sure that we are not 
exposing the agency and the information we have to risk as we 
expand telework.
    I think if you set the clock back a few years, I think it 
was very easy for folks to say, well, I have a home computer 
and I will be able to work from home and things will be just 
fine. Just having a home computer I think is no longer just the 
way you need to look at telework. Those home computers do 
insert an element of risk in the agency operations. Certainly 
they do in an intelligence or national security operation.
    We don't control that security domain over your home 
computer and since we don't control that, that does introduce 
an element of risk, and that is something that we want to be 
very vigilant when we manage for those type of risks.
    Mr. Marchant. Thank you.
    Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Mr. Marchant.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you.
    You, Ms. Peterlin, talked about how you would bring people 
together, labor unions and management and so forth, and others 
to tackle the challenges that have been presented with respect 
to telecommuting. Can you just give an example of something 
that came up, a theme, a problem that was being identified kind 
of across the board, if it was, that you were able to take on 
and push through and now look back and say, We were able to 
move past that?
    Ms. Peterlin. Certainly. I will give you a current example, 
if I may, and it is one that I think I confess we are still 
pushing through and working past, but I think it is important 
to use this example because it reveals how the team comes 
together.
    We have technology centers at the USPTO that look at 
particular types of innovation, and within those technology 
centers we have then art units. We had an art unit that became 
a virtual art unit where the art unit, its managers, and the 
examiners went home and worked together virtually. There were 
still other people in the technology center. So you had in some 
ways some people in the same office teleworking and some still 
in the office, because we were trying to test could we send an 
entire unit at this level home.
    What we found is that we need to make sure that the people 
who were still at the USPTO don't carry all the burden of 
training the new examiners that are on board, because we saw 
that--and this is something that our union has raised to our 
attention and some of the employees in the surveys raised to 
our attention--that people had an inclination to want to seek 
training from the person that they could go next door to their 
office, and there was a little bit of a barrier of thinking, 
oh, I don't want to call them because they are at home.
    That, to me, raises just a management issue of going back 
and saying, they are not at home, they are teleworking today, 
and they want you to pick up the phone and talk to them.
    This is an example of an issue. I think it is the type of 
issue you are asking me to talk about.
    Mr. Sarbanes. Right.
    Ms. Peterlin. And I would say that we just finished the 
virtual art unit pilot, so we just had this assessment about 
the fact that some people are reluctant, just personally 
reluctant to reach out to the teleworking trainer more so than 
the trainer that may be a few doors down. And so we are going 
to approach that by talking to our managers and saying, Look, 
it is important that you don't have that instinct, because that 
instinct is a bit artificial. The trainer at home is confident 
and interested and wants to be involved in training, as well.
    Mr. Sarbanes. OK. That is a great example.
    Either one can answer this question, or both. It picks up 
on what Mr. Marchant was saying. As a practical matter, we talk 
about telecommuting or teleworking, the definition qualifying 
based on 1 day a week or 2 days a week or 20 percent over 2 
weeks, or whatever. But somebody gets into a good telecommuting 
arrangement, is it not the case, practically speaking, that 
they are going to move toward a kind of full-time telecommuting 
arrangement? Or am I missing? Because, particularly in terms of 
saving space and other things, I would imagine that, until you 
get to that kind of tipping point, maybe you are not getting 
the benefit of it so much.
    I am just curious across in both offices, across the work 
force that is telecommuting, how many are in that full-time 
telecommuting category?
    Mr. Lofthus. We don't have many in the full-time 
telecommuting category yet. One of the things that is coming 
down the pike, though, that I think will help in this area is 
the ability to track telework and the job series of the folks 
that do telework and how frequently they telework.
    We at the Department of Justice or in the National Finance 
Center at the Department of Agriculture supporting our payroll 
systems, and they have a new system--or new to us--called Star 
Web, and Star Web allows us to start tracking at a time and 
attendance recordkeeping level, meaning a very detailed level, 
how often people are telecommuting, and we can really get now 
for the first time really good statistics on who is doing it, 
how frequently they are doing it, if the success of what they 
have already done allows them to expand their use of 
telecommuting.
    I think that gives us an advantage over the more anecdotal 
data we had a couple of years ago, so I am looking forward to 
the fact that we can use that kind of information that will 
help us target other areas in the Department where 
telecommuting may be a viable option and people just haven't 
looked at it yet in those areas.
    Mr. Sarbanes. OK.
    Ms. Peterlin. Yes, sir. I have a lot of statistics in front 
of me, and so I want to give you what I think might be the most 
useful statistics.
    We have found that it isn't always the case that if you are 
teleworking 1 day now that you will migrate to 4 days, because 
what we are trying to do is the reason why we have 17 programs 
at the USPTO is because we find that, depending on the business 
needs of the particular mission, your job may allow you to 
telework 1 day a week.
    We have customer call center personnel who work 4 days a 
week, but the requirements of their job would allow that, if 
they consolidate administrative type of work into 1 day, they 
can telework during that day.
    Then we have other positions where they can telework 4 days 
a week.
    So right now in our trademarks examining attorneys working 
from home 4 days a week, we have 246 examining attorneys 
working at home 4 days a week. We have 26 who work at home 3 
days a week, 7 2 days a week, and 55 1 day a week.
    So, depending on the position and the requirements of the 
position, that does influence the number of days where 
teleworking makes sense, which does impact the return on 
investment that the agency might----
    Mr. Sarbanes. Are the ones that are working 4 days a week, 
does that mean 1 day a week they are coming in to the main 
location, or they are just working 4 days a week according to a 
flex schedule?
    Ms. Peterlin. They are working 4 days a week from home, and 
so 1 day a week they would be in the office. There is a 
requirement that folks come in for 1 hour per week to establish 
their duty station for pay purposes.
    Mr. Sarbanes. I see. OK.
    Mr. Davis of Illinois. Thank you very much, Mr. Sarbanes.
    Mr. Lofthus, recognizing that the Department of Justice is 
a law enforcement agency, isn't there a large number of law 
enforcement positions that could be eligible for telecommute?
    Mr. Lofthus. Mr. Chairman, yes, I think that is true. I 
think there are law enforcement positions that are suitable for 
telework. But what we have learned is it depends on an 
individual's duties, and I can give you an example of that.
    At Justice we have a job series called investigator, 
criminal investigators, and we have investigators across our 
law enforcement components. At the ATF we happen to have a 
large number, I think nearly 400, investigators who are 
telecommuting, and they are doing that very successfully. These 
are investigators that go out into industry and they do reviews 
and they write reports. ATF has found it very viable for those 
investigators to do that report writing and assimilate their 
information from telecommuting centers or from their homes, so 
that is working very well.
    At the same time, in that same broad job series, 
investigator or criminal investigator, we have investigators at 
DEA and FBI who have really quite different duties. They may be 
working on case investigations that involve informant 
information, may involve undercover operations, may involved 
classified information. So those investigators really have 
duties that are more site specific and they come into the 
office for the protection of the data.
    So you have similar-sounding jobs with actually quite 
different duties. So when we look at our opportunities for 
teleworking, what we found is we have to go below the job 
series and really look at the specific duties of the 
individuals.
    But your point is an excellent one. What we have learned, 
again, I think, from some of the new data we are getting, is 
the opportunities for attorneys--the civil division example--
the opportunity for attorneys to telework is one that I think 
there is some potential there. We have had pockets. My 
organization has a small number of attorneys, but some of those 
telework. Civil Division has been successful. The U.S. 
Attorneys Organization has attorneys that telework. So there 
are people in the Justice/law enforcement environment that can 
telework, and we are looking for those opportunities.
    Mr. Davis of Illinois. The Department of Justice has some 
innovative programs for telework, but we think that some of it 
bureaus are lagging. Recently the ATF gave a group of 50 
employees in the position of legal instrument examiner the 
choice of relocating to West Virginia or leaving employment at 
ATF. West Virginia would be a 3-hour commute for many of these 
employees. Telework was not an option made available to them.
    The reason given is it would require automation of form 
processing, which ATF has claimed would cost $2.7 million. 
Could you explain how the ATF arrived at $2.7 million to 
automate the work of the legal instrument examiners and, aside 
from money, what would prevent the legal instrument examiners 
from teleworking?
    Mr. Lofthus. Mr. Chairman, that case is one where I would 
prefer to be able to get back to you on the specifics. I do 
know that ATF was concerned that the cost of any system 
improvements which would be needed to make telework a viable 
option there. But if I may, I would prefer to get back to you 
with specifics.
    That falls again in the category where I think we are 
serious about looking for opportunities to make these telework 
options available to our staff, but sometimes there are 
barriers.
    Mr. Davis of Illinois. Thank you.
    In a letter sent on May 7, 2007, the subcommittee asked the 
Department of Justice whether the agency excludes any 
categories of employees from teleworking. DOJ provided a long 
list of job categories covering over 47,000 employees that are 
excluded from telework. DOJ said these jobs are excluded 
because they require handling secure materials or performing 
onsite activities.
    Just some of the categories of jobs that are not eligible 
for telework at the Department of Justice include: building 
maintenance, intelligence analysts, security specialists, 
supply program manager, language specialist, legal clerk, and 
paralegal specialist. That is just a sample that DOJ 
identified, and actually identified many more jobs that are 
excluded from telework.
    I can understand why it would be difficult for some of 
these employees to work from home. For example, an employee 
performing building maintenance obviously needs to be present 
at the building in order to perform maintenance on it. But 
DOJ's list includes a number of jobs where, at least based on 
the job titles, it seems like the employees may be able to 
perform at least some of their duties from an alternate work 
site.
    Do legal clerks and paralegals need to be present all of 
the time? Can't they perform research and other work from 
alternate work sites? And what happens if an employee in one of 
these job categories asks to telework? Is that employee 
automatically excluded based on his or her job title, or does 
DOJ look at specific responsibilities and activities of each 
employee who would like to telework?
    Mr. Lofthus. We need to look at the specific duties. I 
don't want to have a Justice environment where we have such 
sweeping decisions made to exclude people based on job series, 
alone, because of the things I have already pointed out, in the 
sense that criminal investigators or investigators may have the 
same job title but very different duties, so I think we need to 
look at the underlying duties.
    While we did have a long list of jobs that were excluded, 
59,000 jobs were deemed eligible for telecommuting. If one were 
to take an extremely restrictive view of the eligible 
positions, you might say only 40,000 jobs at Justice would be 
eligible for telecommuting.
    I think we have tried to be optimistic and include as many 
jobs as we can to make them eligible, which is how we got up to 
the 59,000 number of eligible positions. So I think we are 
trying to give telecommuting the benefit of a doubt and not 
exclude people based on job title, alone.
    I think if you look at the fact that we have 22,000 agents, 
we have 30,000 plus correctional officers, there is 50,000 
positions, alone, that one could say those you just can't 
telecommute. Correctional officers may be one thing where you 
have to be present at the institution and there at the prison, 
but the agents, we do have a small number of agents where we 
are experimenting with telecommuting. I think that is an 
example where we are trying not to exclude people automatically 
just on a series title, but give people an opportunity to try 
it, see if it works, see if the supervisors like it.
    As some of the other panelists have talked about, results 
are what really matter here. If we can do this and get good 
results, then I think our position would be we want to be open 
to that type of consideration for our employees.
    Mr. Davis of Illinois. Thank you very much.
    Ms. Peterlin, as I noted earlier, Representatives Marchant, 
Waxman, Davis, and I sent a letter on May 7, 2007, to 25 
departments and agencies requesting current information on the 
agencies' telework information. In response to that letter, we 
received general information from the Department of Commerce, 
but no specific information on the agencies within the 
Department, including the Patent and Trademark Office.
    Given the apparent success of PTO's program, it would be 
helpful to have more specific data in order to compare it with 
other agency programs. Would you be willing to submit for the 
record answers to the questions we asked in our May 7th letter?
    Ms. Peterlin. Yes, sir, we would be delighted to.
    Mr. Davis of Illinois. Thank you both very much.
    Mr. Sarbanes, do you have any additional questions?
    Mr. Sarbanes. Just real quick.
    At the USPTO, is there any expense that you, as a policy, 
are willing to incur with respect to outfitting a 
telecommuter's home office, or do you put that burden 
exclusively on the employee?
    Ms. Peterlin. No, sir. As we are looking at our cost/
benefit analysis, and somehow this is always an X factor of the 
retention value to the employee, the morale, the productivity 
increases that we see, we outfit their home offices. And we 
actually also pay for the cost of the telework training for the 
manager and the employee.
    Mr. Sarbanes. OK.
    Ms. Peterlin. But we still find that cost/benefit analysis 
leads to benefit for the agency.
    Mr. Sarbanes. The two objections that I can think of, or 
the things that I focus on the most as obstacles or the 
resistance to teleworking, are, one, this whole productivity 
question. I am completely assured by the testimony that if the 
managing to results is done properly, that is easily overcome 
as an objection. The other I guess would just be this less 
tangible esprit d'corps dimension, the notion that people are 
far-flung and you don't see them. This is the good part of face 
time. There is a bad part of face time, right? The good part of 
face time is that you see the people and it helps to congeal 
spirit within the office, and so forth.
    Can you speak to that? I mean, I guess the extent everybody 
is teleworking in your office is still coming in to a central 
location for some period of time during the week. It offers 
opportunities for meetings and other group activities, if you 
will, that can address that issue of esprit d'corps, but maybe 
you could just talk about that briefly. And Mr. Lofthus, as 
well, if you would like.
    Ms. Peterlin. Yes, sir. I appreciate your focus on that 
question because it is a focus that a lot of our senior 
management has spent time on. What are the necessary 
collaboration tools? Our examining attorneys and our patent 
examiners need collaboration tools and search tools in order to 
do the work that they perform, and in order to complete this 
examination, but they also need collaboration tools in order to 
be able to connect.
    I think this is something where you don't ever reach a 
plateau. It is always going to be a management issue. How do 
you connect with someone who is living in Michigan if the main 
office is in Alexandria, VA? I think some of that has to do 
with the comfort of the employee and feeling that they can 
connect through the collaboration tools.
    Some of the tools that we have are as simple or as basic as 
telephone, voice mail, e-mail, but we are doing more and more 
and hold a town hall. In our trademarks area we had a video 
town hall so that the teleworkers actually logged on at home on 
their computers and they had an all-hands meeting or a town 
hall meeting.
    So I think making more frequent use of town hall meetings 
or using instant messaging, you have to use the IT tools that 
currently exist, and then you also have to have managers who 
will, just as a good manager does swing by a cubicle every now 
and then just to see what is going on, swings by electronically 
the employee's cubicle.
    But I think that is a challenge. I think it is OK for it to 
be a challenge, to recognize it as a challenge, and then you 
just have to figure out how to reduce the impact of that 
challenge.
    Mr. Sarbanes. OK. Thank you.
    Mr. Davis of Illinois. Thank you very much, Mr. Sarbanes.
    I note that we have been joined by Mr. Cummings. I know 
when you have a work schedule and load as heavy as his, it is 
difficult to be in three or four places at one time, so thank 
you, Mr. Cummings.
    Did you have any questions or comments?
    Mr. Cummings. Thank you very much, Mr. Chairman, first of 
all, for acknowledging my schedule. I appreciate that. And I 
will be very brief. I just have one question.
    We are finding that, despite the legislative leeway to 
doing so, agencies are not promoting telework programs as 
broadly as I would think they would have. Are there certain 
barriers to this? And is there a legislative solution?
    Mr. Lofthus. If you don't mind, I will go first.
    Mr. Cummings. Sure.
    Mr. Lofthus. In terms of barriers, I think at the 
Department of Justice what we have found so far, other than 
inherent law enforcement issues where there is a deputy marshal 
who has to be on duty in a courtroom, so if you look past what 
I will call those inherent site location jobs to the jobs that 
are more suitable for telework, you need tone at the top where 
senior leadership at your agency or department says that 
telework is an important program for the agency, it is 
important for the operation of the agency, and it is important 
for the quality of work life for our staff, so you need 
positive tone at the top.
    You need open-minded supervisors. What we are finding at 
the DOJ, as telework expands and as we see pockets of success--
for instance, with our investigators at ATF, with the attorneys 
in the civil division, with other jobs--as you see pockets of 
success, I think that breaks down barriers in the rest of the 
Department where people may have said, Well, I don't think such 
and such a job is very suitable. We can demonstrate otherwise.
    So it comes back to being able to have open-minded managers 
and people who are behind the program and that are supportive 
of it. That is what we are finding at Justice.
    Ms. Peterlin. What I would like to add to that list, sir, 
and what has been a primary issue to us, one of the barriers to 
telework is having the development of a reliable and secure 
computer system so that our folks could actually get immediate 
access to the same documents that they would have been able to 
have access to were they in their office, and that they are 
able to download them reliably.
    So because we were able to start small years ago, we have 
been actually able to anticipate and include in our program 
designs and upgrades that the system would accept teleworking 
and would be able to provide that sort of instant response, 
high band-width capability, and security needs.
    Mr. Cummings. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Mr. Cummings.
    Mr. Issa, did you have any questions or comments?
    Mr. Issa. No, sir. Not at this time.
    Mr. Davis of Illinois. Well, we want to thank both of you 
very much. We certainly appreciate your presence here this 
morning and we appreciate your participation.
    Thank you, and you are excused.
    Mr. Lofthus. Thank you.
    Ms. Peterlin. Thank you.
    Mr. Davis of Illinois. As we prepare to hear from our last 
panel, let me just begin with the introduction of our 
witnesses.
    Mr. John Wilke is a Trademark Examining Attorney with the 
U.S. Patent and Trademark Office. In 1981 he left the USPTO to 
take a staff position at General Mills in Minneapolis as an 
attorney. Mr. Wilke works for the USPTO out of his tome in Long 
Grove, IL, under the office's extended geographic telework 
program.
    Mr. Steve O'Keeffe is the founder and executive director of 
Telework Exchange, a public/private partnership focused on 
promoting the adoption of telework.
    Ms. Ann Bamesberger is vice president of SUN Microsystems 
Open Work Service Group, an organization focused on creating an 
infrastructure that supports the increasingly global dispersed 
and mobile work force.
    And Mr. Haywood J. Talcove is vice president of public 
sector americas for Juniper networks. With his teams, Mr. 
Talcove supports the networking and security needs of 
Government through his company's broad range of high-
performance technology solutions.
    I want to thank you all for being here.
    It is the custom and tradition of this committee, as well 
as others, that all witnesses are sworn in, so would you stand 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative. We thank you all very 
much.
    We will proceed and will begin with Mr. Wilke.

  STATEMENTS OF JOHN WILKE, TRADEMARK EXAMINING ATTORNEY, PTO 
TELEWORKER; STEPHEN W.T. O'KEEFFE, EXECUTIVE DIRECTOR, TELEWORK 
 EXCHANGE; ANN BAMESBERGER, VICE PRESIDENT, OPEN WORK SERVICES 
  GROUP, SUN MICROSYSTEMS, INC.; AND HAYWOOD J. TALCOVE, VICE 
   PRESIDENT, PUBLIC SECTOR AMERICAS, JUNIPER NETWORKS, INC.

                    STATEMENT OF JOHN WILKE

    Mr. Wilke. Thank you, Chairman Davis, Ranking Member 
Marchant, honorable committee members, and distinguished 
guests. My name is John Wilke. I am a Trademark Attorney 
Examiner at the U.S. Patent and Trademark Office. It is my 
honor and privilege to testify before this committee this 
morning.
    I have been asked to testify because I am a trademark 
office teleworker and I am also participating in a USPTO pilot 
program which allows employees to work from geographically 
remote locations.
    In my case, I work for the PTO from my home in Long Grove, 
IL, just north of Chicago. I am testifying from my home office 
today. This is my lovely basement here.
    I first worked as a trademark examiner at the USPTO from 
1979 to 1981. This was my first attorney position and I learned 
a great deal from those first few years at the office.
    I left the PTO to work as a trademark attorney in private 
industry for the next 23 years. I eventually became trademark 
counsel for Monsanto Co. and then patent and trademark counsel 
for American Tool Companies, another Chicago company. During 
that time I was elected to the Board of Directors of the 
International Trademark Association, and I served as chairman 
of several ITA committees, including the ITA Patent and 
Trademark Office Committee.
    Following the takeover of American Tool, I considered 
several trademark positions in law firms and other companies, 
but when the PTO offered me this position I was very glad to 
return to the office.
    I worked at PTO headquarters in Alexandria for over a year, 
really becoming re-qualified, and when I became eligible for 
the office's telework program I requested that I be allowed to 
work from my home here in Chicago.
    Fortunately, the office was able to accommodate that 
request as part of a new geographic expansion pilot program, 
and I have been working remotely from here since last January.
    The office's telework program has truly been a wonderful 
blessing for me. It has allowed me to remain close to my family 
and friends and has allowed me to participate more fully in the 
life of my community here.
    My family and I have lived in the Chicago area for nearly 
20 years. My wife, Ophie, and I raised our three children in 
Buffalo Grove. They all graduated from Stephenson High School 
in Lincolnshire. Our son, Sean, went to Columbia College in 
Chicago, and Matthew went to DePauw. They both now live and 
work in Chicago itself.
    Ophie works at Lutheran General Hospital in Park Ridge. We 
are active members of the St. Mary Parish in Buffalo Grove. I 
sing in the choir. She is a eucharistic minister. We have a lot 
of friends here that we have made over the 20 years we have 
been here.
    The telework program with PTO has made it possible for me 
to work for the office and at the same time stay near our 
children and among our long-time friends. It has truly enhanced 
the quality of my life and the life of my family.
    I believe the telework program has also been of great 
benefit to the Patent and Trademark Office, itself. Thanks to 
this program, I was able to return and actually make a valuable 
contribution to the trademark examining operation. Soon after 
my return I was given the responsibility in assisting in the 
training of new examining attorneys, and I have served as a 
mentor for six young attorneys so far. I have also maintained 
the highest production and quality levels, and have achieved a 
rating of outstanding for every rating period since my return.
    Last month, in fact, I was recognized by the American 
Intellectual Property Law Association with an award that was 
given to me here in Washington for outstanding performance as 
an examining attorney in the Patent Office.
    The office has greatly benefited from the contributions of 
many employees who have joined the PTO or who have come back to 
the PTO or who have remained at the PTO in large part because 
of its excellent telework program. While there is still a need 
to address the problem of the weekly office visit requirement, 
which is one of the barriers that was mentioned here earlier, I 
feel the PTO is still the best telework program in Government 
or in private industry. It has truly enhanced the quality of my 
life and has benefited the agency, as well, by allowing it to 
attract and retain capable and experienced employees.
    I believe other agencies and other Federal employees would 
also greatly benefit from the adoption and implementation of 
similar programs.
    Thank you very much for allowing me to join you there 
today. I would be happy to answer any questions you might have.
    [The prepared statement of Mr. Wilke follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. Wilke. We 
will proceed now to Mr. O'Keeffe.

               STATEMENT OF STEPHEN W.T. O'KEEFFE

    Mr. O'Keeffe. Chairman Davis and subcommittee members, 
thank you for the opportunity to speak today. My name is Steve 
O'Keeffe, executive director with the Telework Exchange. We are 
a public/private partnership.
    Every Federal agency is actively involved in the membership 
of our organization, and we have more than 6,000 Federal 
employees who have registered on our site to understand the 
telework opportunity. This is my third testimony on telework. 
Your focus for the hearing is on breaking through, and so I am 
going to dispense with formality and cut to the chase.
    While telework is moving, the programs are locked in 
traffic jams and new action is required to move things forward.
    So why should America care about telework? Let's start with 
cost and gas consumption. The Federal work force spends $20 
billion a year on commuting. Extrapolating to the U.S. white 
collar work force, America spends $572 billion a year on 
commuting. This is significantly more than the gross domestic 
product of the Republic of Ireland.
    As Americans, we burn $26 billion of gas by commuting each 
year. That is 62 percent of the U.S. strategic petroleum 
reserve.
    Now to pollution. The average Fed pumps 8 tons of pollution 
per year into the environment commuting. This translates to 
14.4 million tons across the Government. If all eligible Feds 
teleworked 2 days a week, we would eliminate one-quarter of the 
emissions from the Federal work force each year.
    Now to time and productivity. The average Fed spends 245 
hours commuting each year; in fact, more time commuting than on 
vacation each year. If all eligible Feds teleworked just 2 days 
a week, the Federal work force would reclaim 73.3 million hours 
of their lives back each year. That is an additional week off 
work for each Federal employee per year.
    Now to pandemic planning. As we approach the season, 
clearly this is top of mind. Only 27 percent of Feds would show 
up for work in the event of a pandemic, according to a recent 
study. Just 21 percent say they are aware of their agency's 
pandemic plans, and out of these Feds only 27 percent know if 
their agencies incorporate telework into continuity of 
operations plans.
    The question is: who will tend to America if Uncle Sam 
calls in sick?
    So where are the road blocks? First, eligibility. OPM 
reports only 10 percent of eligible Feds telework today. A CDW 
study shows that 79 percent of Feds would telework if given the 
option. Clearly, the math does not add up. This is why the 
Telework Exchange rolled out the telework eligibility gizmo to 
allow Federal employees to quickly understand approximately 
their eligibility status. As you know, the eligibility criteria 
vary widely among agencies.
    In fact, it was good to see OPM testifying again. We would 
like to see more from OPM in the way of telework leadership. We 
offered to partner with OPM to establish a telework friendly 
seal of approval for telework positions on USAJOBS.GOV. This 
would allow agencies to identify new jobs as telework friendly, 
to make Government jobs more attractive. We posed this program 
to OPM almost 2 years ago, and we are still waiting for an 
answer.
    At consecutive hearings, Members have asked OPM for its 
success in getting managers to buy into telework. Again, the 
same answer: no quantifiable data. I would ask why.
    We asked if OPM will step up to provide much-needed 
leadership or continue to take a back set on telework.
    Other roadblocks--management resistance. Management 
resistance is still the elephant in the room. Regrettably we 
see in the Federal Government the continued culture of 
management by walking around. That said, as managers experience 
telework they become more favorable to it. Managers that manage 
teleworkers are more favorable than managers that don't, and 
managers that telework, themselves, are still more favorable. 
The problem is that too few Federal managers are teleworking.
    Poor mission alignment. Just 35 percent of Federal managers 
believe their agencies support telework. If telework is a 
critical plank in continuity of operations, then clearly the 
message is getting lost in translation from the leadership to 
middle management and we need to redouble our efforts here.
    Lack of resources. Agencies do not dedicate the time to 
telework. The majority of telework coordinators today spend 
less than 25 percent of their time on telework.
    So it can't be all bad news, right? That is true. GSA 
announced an aggressive telework challenge, which we heard 
about this morning. PTO, DSSA, and other agencies area already 
blazing the trail. Representative Wolf proposed a National 
Telework Week, and we strongly support that. And there are many 
activities afoot on the Hill, including these hearings, the S. 
1000 proposed legislation, and the Telework Amendment to the 
Energy bill. So telework is not completely gridlocked, but 
traffic is clearly moving too slowly.
    So what can we do? Benjamin Franklin said that the 
definition of insanity is to assume the same behavior and 
expect a different outcome. What we need to do is innovate. 
First we need to address eligibility. We need to offer telework 
as an opt-out rather than an opt-in for Federal employees. And 
we also need to require them to justify why they are making 
positions ineligible.
    We need to address management resistance, educate managers, 
and encourage management specific pilot programs so managers 
actually have hands-on experience teleworking. We need to test 
drive continuity of operations. Telework is not a break glass 
in case of emergency proposition, and we need up-front 
commitment from agencies, and we need to allocate resources, 
one full-time senior level telework coordinator per agency, and 
that person should participate on a team with the IT planning 
support organization.
    I would like to put forth a challenge. As I mentioned 
earlier, we have been waiting for OPM to respond to us for 
almost 2 years to set up this notion of the telework friendly 
seal of approval. The Telework Exchange will independently 
launch a Government telework friendly job bank on our Web site 
in 2008. Agencies will be able to post telework friendly job 
postings at www.teleworkerchange.com. People will then be able 
to go to the Web site and check out Federal jobs that they may 
be interested in applying for. The door is always open for OPM 
to come back to the table in terms of partnership.
    We also encourage other agencies to take the same kinds of 
commitments as GSA, DSSA, and PTO in the telework drive.
    Thank you for your time this morning. We appreciate your 
consideration.
    [The prepared statement of Mr. O'Keeffe follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. O'Keeffe.
    We will go to Ms. Bamesberger.

                  STATEMENT OF ANN BAMESBERGER

    Ms. Bamesberger. Thank you, Chairman Davis. And thank you, 
members of the committee, for having me here. I very much 
appreciate the opportunity to share with you some ideas from 
the private sector, having spent the last 10 years working in 
the area of life balance, work balance. I am very pleased to 
see my Government taking action along the same lines.
    I would like to just briefly explain the context of SUN 
Microsystems. It is a computer system. We have been in business 
since 1982. It started at Stanford, University. That is, 
indeed, what SUN stands for. It is Stanford University Network. 
We were one of the first networking companies to embrace Unix 
as an open system.
    We are not that large. We are about 35,000 employees, and 
we are at about $15 billion revenue. I mention those numbers so 
that you have some context for some of the numbers that I will 
be telling you and scale that up according to the population 
that you are probably considering in terms of opportunities for 
the Government.
    I don't think I need to dwell on the drivers that have 
caused us at SUN to embrace what we call open work. We don't 
call it telework. We don't call it telecommuting, because for 
us it has become the way of work. Clearly, since we are a 
computer company, we are clearly very, very comfortable with 
technology, and yet over the last 10 years I have seen a sea 
change literally in the last 2 years. Even here I notice a lot 
of your staff running around with Blackberries. I'm sure they 
didn't do that 2 years ago.
    We are looking to hire next generation employees, and the 
Gen-Y people that we are studying now in research combinations 
with the universities are very tech savvy. We will see our kids 
texting each other. That is a form of collaboration. It is not 
necessarily face to face, but it is becoming a new way of 
engaging, and universities are embracing this, and so we are 
watching universities so that we, ourselves, can remain at the 
leading edge.
    Global markets, technological innovation, you have seen 
them all. You know that business continuity is a big issue. 
What I haven't heard a lot of today, which actually surprises 
me, is the cost containment opportunities that this kind of 
work actually affords.
    I remember Ms. Peterlin, who struck me as being a subject 
matter expert in many ways, did indicate that they are 
investing money in technology and yet still coming out ahead of 
the curve. The truth is you save so much on real estate by not 
continuing to proliferate traditional office environments that, 
I would submit, if you look around today are not 100 percent 
occupied. People are in meetings, people are out, people are 
traveling. So even today you probably have an opportunity to do 
some cost containment.
    Our response in that way is that over 10 years we have now 
contained over half a billion dollars from our real estate run 
rate, which is the second-highest run rate after salary. I 
would imagine that is true for you, as well. The truth is, we 
can also save in technology. We have adopted what is called a 
thin client approach to computing, which will become more and 
more the norm as we look to the future. It is really what 
web2.0 is starting to be all about, the kids doing IM, the kids 
going on Facebook, the communication that is happening very, 
very fluidly on top of the computer networks. So networks are 
not going to be quite the same as they once were, and the 
fluidity of communication, you will be able to see more and 
more of an increase.
    But what I really want to do is focus not just on how we 
have benefited, but you spend a little bit of time on what I 
have heard from you to be your primary barriers, and I would 
welcome questions.
    Management resistance is, indeed, a barrier. I would be 
foolish not to say that I don't have some scar tissue. The 
truth is the line of sight is a very strong perception of 
control, and psychologically a belief system is a very powerful 
thing to try to break.
    We at SUN have not tried to break that belief system. We 
have, rather, tried to work with it and validate managers' 
concerns and, in fact, enlist them in providing the solution 
that would work both for them and for their employees.
    It is doable. It is not as insurmountable as it seems when 
you first start, nor does it have to take 10 years. Again, I am 
seeing a leapfrog. I am seeing a sea change, so that in the 
next year or two I submit that managers will become more and 
more aware of how their employees are working this way, and the 
expectation of managers will be that they will manage in that 
way a lot more than we have seen in the past. I am seeing that 
at SUN.
    I also share that, from a management perspective, the 
default of having this be the way of work would be a terrific 
shift in the mind set of managers, so that they, rather than 
trying to choose who is eligible, would have to work with their 
staff on who isn't and why.
    It is quite true that across all types of work--and we have 
marketing people, we have legal people, we have engineering 
people--the differences among job classes is really minuscule, 
and you will find that the type of embracing of this work is 
just a matter of experimentation, trust, and time.
    I see my time is up. I also want to really touch on two 
other things. What I didn't see here today was a systemic 
approach. I saw the real estate folks potentially talking about 
the telework centers, which is terrific. I saw the human 
resources people talking about management. But what would 
really help is if you thought of this as a system, because the 
total cost of operations, the real estate savings could be 
reinvested in the management side, and that is non-trivial. 
Inside a corporation like mine, our functions are siloed, so 
trying to get the savings from one entity and reinvest in 
another is a challenge, but it is doable and it is very 
valuable to the employee. The employees really, really 
appreciate this.
    I strongly encourage you to embark. Don't try to boil the 
ocean. Don't try to do it all. Don't try to get it right. 
Leverage Ms. Peterlin. She was terrific. And I would start 
small. Again, I would set very clear outcomes for your pilots, 
keep them small, set the metrics with regard to your business 
objectives, not necessarily your telecommuting objectives, but 
what is the business trying to accomplish. What you will find 
is you will probably be able to accomplish those better, 
faster, and cheaper by using a different way of getting people 
to work and having the work come to them.
    I thank you for your time, and I look forward to answering 
questions.
    [The prepared statement of Ms. Bamesberger follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much.
    We will go to Mr. Talcove.

                STATEMENT OF HAYWOOD J. TALCOVE

    Mr. Talcove. Thank you very much, Mr. Chairman and members 
of the committee, it is a great privilege to testify before you 
today on a pressing need for policies that help promote and 
enable telework and remote access across the Federal 
Government.
    Telework will radically alter in a very real way all facets 
of Federal Government, from how it conducts business and 
protects and serves citizens, to how it promotes good 
stewardship of the environment.
    In four short years, the front edge of the Boomer 
generation will turn 65. This shift will have a significant 
impact on both the public and private sector. Through telework, 
we can help reduce and improve workers' accountability.
    The benefits of telework are clear. First, telework 
promotes efficiency. It benefits the Federal Government by 
boosting worker productivity through instant, highly secure 
remote access to Government networks and resources that workers 
need to do their jobs.
    Second, telework is an attrition remedy. Telework acts as 
an incentive that makes working past retirement age both 
feasible and attractive for Government employees who are needed 
to train and mentor the next generation of agency staff who 
will replace them.
    Third, telework is both a motivational and recruitment 
tool, as we have heard today. It can empower employees to 
balance work and family life, which can result in lower rates 
of absenteeism and better retention.
    Beyond the human capital benefits of telework, it is 
vitally important to highlight the important role telework 
plays in homeland security and Government continuity of 
operations. The past several years have been marked by manmade 
and natural calamities, such as the terrorist attacks of 9/11, 
Hurricane Katrina, the Minnesota Bridge collapse, and the 
southern California wildfires, have demonstrated like few other 
periods in recent history the importance of continuity of 
operations and emergency preparedness. It is at times like 
these that citizens rely on Government the most and expect 
Government to deliver needed services and support in a timely 
fashion.
    For Government to respond in a timely manner, it must equip 
essential employees with the tools necessary to communicate and 
execute their responsibilities 24 hours a day, 7 days a week, 
365 days a year.
    The good news is that off-the-shelf technology already 
exists to support secure teleworking by employees. Secure 
socket layer, virtual private networks [SSLVPNs], can provide 
connectivity to IT assets so that employees can securely access 
resources from virtually any location using a variety of 
devices.
    More to the point, because disruptions or disasters may 
strike at any moment, the best way to ensure that Federal 
workers are prepared for continuity of Government is to promote 
and practice telework as a part of everyday agency operations.
    But perhaps of all the advantages of telework, it is the 
environmental benefits that most impact citizens in their 
everyday lives. Most if not all of us here in this chamber have 
suffered through the maddening experience of inching along, or 
idling, as the case may be, in the Washington, DC, area 
traffic. Just consider for a moment how much cleaner the air 
would be if Federal agencies in this region, alone, promoted 
regular telework.
    Among their employees, now consider the man hours saved and 
the aggravation spared if telework were more widely practiced. 
Of course, telework is not a magic bullet for all that ails the 
environment; it does, though, represent a way for us to cut 
commute times, lessen congestion, and decrease the county's 
dependence on non-renewable and foreign sources of energy.
    Yet, despite all of these benefits of telework I have 
outlined today, some Federal agencies have been slow to adopt 
and enable the practice.
    To get a better sense of the Government's plans for and 
current telework capabilities, Juniper Networks commissioned a 
third party to poll more than 1,400 Government employees. The 
survey revealed most notably that 8 in 10 respondents, 79 
percent, said their agency allows telework in some form. Less 
than 3 in ten, 28 percent, actually do telework on a routine 
basis. Routine basis is defined as more than 20 percent of 
their time, or at least 1 day a week.
    Additionally, although few Government respondents, 12 
percent, reported that their agencies have telework training 
programs, the good news is that a majority, 51 percent, said 
their agencies had dedicated staff to support telework, the 
critical COOP component.
    In conclusion, we at Juniper Networks recognize that 
implementing and promoting telework policies throughout the 
Federal Government is a daunting though not futile task. The 
good news is that some agencies, such as the U.S. Department of 
Labor, Mine Safety, and Health Administration and the General 
Services Administration are already leading the way with 
infrastructure in place to enable teleworkers or have ambitious 
plans to have half of eligible employees teleworking at least 1 
day a week by 2010.
    Private industry looks forward to helping these and other 
Federal agencies in every way possible as it moves toward the 
goal of enabling telework for all critical employees.
    On behalf of Juniper Networks, I would like to thank you 
for the opportunity to speak to the committee today.
    Thank you.
    [The prepared statement of Mr. Talcove follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much.
    Mr. Talcove, let me just begin with you. In your testimony 
you mention that your company commissioned a survey of more 
than 1,400 employees on teleworking in the Federal Government. 
How many agencies did this survey cover?
    Mr. Talcove. I believe it covered all Federal agencies and 
the majority of State and local governments, as well.
    Mr. Davis of Illinois. Did the survey ask why so few 
employees actually telework when given the opportunity?
    Mr. Talcove. It came down to a lot of the comments that 
were made by my colleagues that were testifying today. There 
are concerns from a management perspective. How do you run an 
operation if your employees aren't centrally located? There is 
concerns about technology and infrastructure. There is concerns 
about security. All those issues came up.
    I can speak from my personal experience at my company, 
which has about 6,000 employees, and though it is challenging, 
we have overcome those obstacles and work remotely on a regular 
basis.
    Mr. Davis of Illinois. And so in order to promote or 
further promote, what do you think we can do?
    Mr. Talcove. I am going to talk from just my personal 
perspective in running my organization. I think it starts at 
the top. In my group it is not about being in the office 8 
hours a day; it is about getting your job accomplished in a 
timely fashion and meeting the metrics that we have 
established.
    It is also about trusting your employees to do the right 
thing; that when they are not in your direct visibility--I have 
an organization that is worldwide, from Washington, DC, to 
California to Germany. I can't see everyone every day, and I 
trust that they are going to do the right thing.
    Then the third thing is the economies of real estate. Being 
in the private sector, it is incredibly expensive to open 
facilities. The cost of technology in telecommuting is 
significantly less.
    Mr. Davis of Illinois. Ms. Bamesberger, let me ask you what 
role has telework played in helping your company, SUN 
Microsystems, recruit and retain the work force it needs?
    Ms. Bamesberger. Mr. Chairman, I think Ms. Peterlin 
answered that question for me. We have, over time, learned that 
our initial capital is very difficult to recruit and retain. We 
are in Silicone Valley. We have the famous Google stealing from 
all of the companies that used to be the Silicone Valley 
babies. In order to be competitive, we have had to increase our 
reach to beyond just down the street, so we find our knowledge 
workers from wherever we can. In order to do that, our 
managers, themselves, have seen the value proposition, because 
they are managed to their results and their output, they have 
found that they need to be more flexible with regard to where 
they hire people.
    So it isn't unreasonable at all to have hiring managers 
looking for people outside of the geographic area that would 
make sense to commute to a location.
    So we have found that it has really helped recruiting and 
retention because we let the work go to the individual and not 
have the individual drive to work. And we are finding that the 
next generation employee is making lifestyle decisions before 
they make their employer decisions. So if that is the case, 
then they will be choosing where to live before they choose 
where to work, in which case we would like to be prepared so 
that we can capitalize on that.
    Mr. Davis of Illinois. Thank you.
    Mr. O'Keeffe, what level of satisfaction has your company 
found as you have interacted with individuals in both the 
public and private sectors relative to satisfaction among 
employees who actually do telework?
    Mr. O'Keeffe. We recently completed a study with the 
Defense Information Systems Agency looking at its generation-
wide recruits, the average age about 26 of people coming into 
Defense Information Systems Agency. So what we see there is not 
necessarily their level of satisfaction historically, but the 
priority they place on telework, and it is one of the three 
most important factors, the ability to work where they want to. 
The flexibility not with sitting in traffic, in their decision 
to come work for the Federal Government.
    So consistently, though, we do see that telework comes up 
time and time again. Flexibility is a consistent factor in 
promoting job satisfaction and promoting retention and 
recruitment.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I am going to concentrate on a couple of areas of questions 
that I think the first couple are going to be sort of 
Government related.
    Mr. Wilke, you are living in Chicago area. You work for an 
entity that is Washington based. We pay a premium at the PTO 
for people to work here in Washington. How does that work for 
you in that you have chosen to live in an area that has a 
certain cost versus the District of Columbia area?
    Mr. Wilke. Well, my duty station is still Washington, DC.
    Mr. Issa. Do you think that is fair to the Federal 
Government that you get paid a premium for Washington, DC, 
while you can live anywhere in the world at any cost? Or do you 
think the Federal Government, if they allow telecommuting, 
should, in fact, not pay a premium for where either you choose 
to live as a high area or choose to live as a low area, that 
there should be one national rate if we allow telecommuting?
    Mr. Wilke. Well, I don't know about whether there should be 
one national rate, but I think it would be fair to let 
everybody be compensated in accordance with the cost of their 
location.
    Mr. Issa. Why? Why should the Federal Government subsidize 
somebody's choice of where they are going to live if we are 
going to have telecommuting, if we are going to pay for the 
cost of wherever you choose to be? This is a private sector 
question to the public, but shouldn't we essentially say we are 
not going to pay a premium for where you choose to live? I 
mean, you could be doing this in Maui. Would we pay a little 
higher because you chose to be in Maui than if you chose to be 
in Arkansas? Would you think that is fair? I happen to think 
you have a lovely basement, but should I pay a difference based 
on where your basement is?
    Mr. Wilke. Well, in this case, if my duty station was 
Chicago you would be paying a premium because Chicago is 
slightly a higher cost area than Washington, DC. I am fine with 
leaving it a standard rate, like you are suggesting, saying 
everything is Washington; that it doesn't matter if you want to 
live in a low-rent district or a high-rate district, you should 
all be paid the same. And that is the way it is right now.
    Mr. Issa. I guess I will go to my comparatively private 
sector panel. He was very fair, considering it is his paycheck. 
That is very hard to do in Government. But how would you see 
that as national policy for the Federal Government? How should 
we work with the differentials we pay when, in fact, that 
differential may not exist if someone is allowed to not come in 
at all? We are talking about people who are full-time 
commuters? Mr. O'Keeffe? And I will accept how people do things 
in their own company if that is the best reference.
    Mr. O'Keeffe. I think PTO talked about this notion of 
moving to a nationwide work force, and that is coming, and this 
is one of the issues that has to be addressed as we move to 
that. But I think looking at the pay differential, clearly it 
has to be addressed today, but there are other factors that 
need to be considered, as well.
    Say, for example, we are looking at in many circumstances 
the agencies don't allow this type of distributed work, and so 
as those agencies need to--we talk about continuity of 
operations, we talk about the challenges of recruiting, and 
what you will, and so I think this needs to be factored. This 
is one factor that needs to be considered as we look at a 
broader remaking of the definition of duty station and the work 
environment.
    Mr. Issa. Ms. Bamesberger.
    Ms. Bamesberger. Mr. Issa, what we do at SUN is we have 
differentials based on geography. I also happen to do site 
searching for the company when we plan expansions or 
retrenchments, and part of the exciting move to the countries 
that are lower cost had a huge wave of interest on the part of 
the company in order to save money. What we found is that 
hiring people in India has not necessarily proven to be so 
beneficial in the long run, although the whole total cost of 
being somewhere physically and then paying the salaries is 
taken as a composite.
    So when someone chooses to go from a high-salary location 
and then they move to a lower salary, then they do actually get 
the lower salary, whatever the salary is in the geographic area 
they move to. If it goes in the other direction, that is up to 
the manager and the employee.
    Mr. Issa. OK. Mr. Talcove, how do you do it at Juniper?
    Mr. Talcove. From our perspective I think there are two 
issues. First of all, regardless of where the employee is 
located you need to make sure that they can actually perform 
their job, so if we have an employee that is located in 
Washington, DC, that may be settling into the Federal 
Government and they decide that they wanted to move to a place 
that wouldn't be possible, obviously that wouldn't be something 
that we could accommodate.
    The second, and just like SUN, we do have geographical pay 
differences, so the higher-cost areas, folks do get paid more 
than in the lower-cost areas. In my team, I have had people 
move in and out, and we change their salaries accordingly.
    Mr. Issa. Mr. Chairman, thank you.
    My question was actually because this feeds into another 
hearing we had, which was where we found that people would 
accept a duty station, for example, with the Border Patrol or 
some other group, that was more expensive, and then TDY to a 
lower expense. Or in my case, in southern California if you get 
a duty station in San Diego you get paid more than in, let's 
say, Los Angeles, well, in fact, you and your neighbor with the 
Border Patrol might both live in Temecula, and we deal with the 
fact that we get that complaints all the time in my office that 
these differentials get gamed.
    Hopefully as we go through this and write legislation, we 
write it so that we in the Government can keep from having it 
gamed.
    I appreciate the indulgence on my question. Thank you.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    I am intrigued by the theme I hear from I think all of you 
that teleworking is not an end, it is a means to some other 
new, non-traditional workplace. I wonder, you know, when we 
consider the legislation one of the things we are going to be 
doing is asking agencies to articulate a policy and implement 
it and try to facilitate telework.
    But I guess we could include the notion that as we do that 
they should take pains to identify what goals of their agency 
are going to be fulfilled or advanced by teleworking to make 
them more conscious of its benefits--in other words, not to 
simply assume the goodness of teleworking, although intuitively 
we are all attracted to that, but to really think through how 
this is going to benefit the agency and get it to a new place, 
and telecommuting is simply a means for doing that, so maybe 
you could just comment on that approach?
    Ms. Bamesberger. If I may start on that one, since that is 
really my theme du jour, I have worked in this domain now for a 
long time, and I really have seen a huge change in terms of 
resistance, in that the resistance is rapidly going away as the 
benefits that are direct outcome results of what you are being 
managed to do actually improve.
    I mean, I have a lot of data on that. I don't know if I 
have time to get into it. What we do is we don't measure the 
participation; we actually measure the business outcomes, and 
we will do surveys. We had data for the last 8 years on all of 
our pilots, and the pre and the post-data is quite astonishing 
with regard to managing to your objectives and the business 
outcomes. So managing by walking around is not necessarily an 
attributor to that; managing to result and having employees 
feel good about the fact that the managers trust that they are 
getting their work done adds a tremendous amount of loyalty and 
self respect to the equation, which has incredibly positive 
impact on the outcomes.
    Mr. Sarbanes. Mr. Talcove, the whole continuity of 
operation aspiration and goal is one that, by itself, could 
drive a lot of the telecommuting progress.
    Mr. Talcove. Absolutely. I totally agree with that. Having 
been a former public servant--I was a city manager after I 
graduated college--one of the things that struck me when I was 
in that position was for the most part citizens didn't need my 
services until there was a situation, a snow storm, they 
couldn't get to work, they couldn't get to the hospital.
    Citizens need Government most when there are surprises. It 
is incredibly important, particularly in this era, that we have 
the ability to communicate. Right now when you look at some of 
the statistics from the different surveys that were mentioned 
today, that is not available. Quite frankly, that is scary.
    It is more important now than it ever was before, 
particularly in the world that we live in, that we have the 
opportunity to communicate and serve citizens during times of 
natural disasters, or man-made disasters.
    Mr. Sarbanes. Mr. O'Keeffe, you expressed impatience and 
frustration with how quickly or slowly the Federal Government 
is moving to where it ought to be with telecommuting. What 
industry is where it should be at this point? What workplace is 
the absolute model? Or does the whole society need to get 
moving faster in that direction?
    Mr. O'Keeffe. I'm not sure there are any perfect models, 
candidly. I think that the information technology marketplace 
where companies trade on their intellectual property provide an 
interesting example. Clearly, there is not a one-to-one 
comparison map between what the Federal Government does and 
what technology companies do. I think that some of the roles 
that have been designated or functions that historically have 
been considered off the table in terms of telework are being 
challenged.
    JetBlue, for example, an airline carrier, has inbound call 
centers which are distributed. So the notion of if you work in 
a call center and you are accepting calls you have to come to 
work, well, that is not necessarily true. You can do both 
inbound and outbound work in a distributed fashion.
    Mr. Sarbanes. Thank you.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Mr. Wilke, you thought we forgot you?
    Mr. Wilke. Yes.
    Mr. Cummings. Let me ask you this. To set up this process, 
I mean, what do you go through? I mean, what is entailed in 
this and who sets it up? In other words, to create this ability 
for you to communicate with your fellow employees?
    Mr. Wilke. Well, the office provides me with a laptop 
computer, two screens that I work from, two plasma screens. We 
have a VPN. We work through a land-based cable, Comcast, that 
has a line in to the office. Every day I go through a secure 
changing number to log in to the servers at Alexandria, VA. All 
the information is there. Really, this is like being at my desk 
at home working from here.
    Mr. Cummings. So then you see all these airplane 
commercials that says that you can be right there because the 
price is so cheap. I mean, do you see any disadvantage in not 
having the face to face interaction? Well, I guess you do have 
face to face, but, you know, being in the presence of another 
person, of other people?
    Mr. Wilke. Well, there are some disadvantages to it, 
because a lot of times you want to discuss various cases and 
what decisions should be made with your co-workers and with 
your manager and senior attorneys. In most cases it is easy 
enough to just pick up the phone to talk to them or send them 
an e-mail. It is not as good, but it is just about as good.
    As I was mentioning, I was a mentor for young attorneys, 
and that is all done by e-mail and by phone, and it seems to 
work very well.
    The times you really need to come to the office are for 
training, maybe trading in your equipment, or upgrading, 
whatever. Maybe you have to do an argument before the Trademark 
Trial and Appeal Board. Maybe you have to meet with your law 
office in a group meeting for everybody to touch base once in a 
while. So it is really important to get back to the office.
    What is not important is just to come in as a pro forma 
sort of tag-the-base kind of requirement where you come in, 
stop in for the 15 minutes or half hour, and then leave, 
because that requires you to take a plane trip that uses fossil 
fuels. It is expensive, and essentially it is a waste of time 
because you are not being productive on those days when you are 
coming into the office without a real reason to be coming into 
the office.
    Mr. Cummings. So I take it that you, while other people may 
clock in, I guess you just kind of walk down the stairs and sit 
in front of your computer and turn it on, and you are instantly 
at work?
    Mr. Wilke. Yes. Yes, as a matter of fact. The office can 
keep track of how long I have been on my computer every day if 
they want. But mostly our work is tracked by how much you do.
    Mr. Cummings. Yes.
    Mr. Wilke. You have requirements, and if you don't get down 
here and work, every 2 weeks your manager looks at that and 
says, what have you been doing? So nobody really looks over my 
shoulder all day.
    Mr. Cummings. How long have you been doing this, this 
telecommuting?
    Mr. Wilke. Just for about a year now.
    Mr. Cummings. OK. If you were trying to set some policies, 
you know, as one who has managed people, I think one of the 
things that people fear, management type fear, is that they 
will lose supervisory contact with the employee, you know, the 
employee go off and have a 3-hour lunch or something like that, 
or goof off. I think, because it has been our tradition to 
operate with folks in the office and to know that they are 
there, I think it is kind of hard for some people to accept the 
fact that this can work, and work very effectively.
    But having had the experience that you have had, if you 
were, say, one putting together a program like this, what 
things would you be most concerned about? And what kind of 
things would you caution, say, the Congress to be careful 
about? You may not have anything. I don't know. I am just 
curious.
    Mr. Wilke. Well, I think that any agency that has a mission 
that can be quantified where the employees have a set amount of 
work to accomplish have an easy time converting to this sort of 
system. That is exactly what the Patent and Trademark Office 
has. Everything we do is quantifiable and measurable, and it 
has been established over a number of years how much really can 
be done in a reasonable time.
    So getting rid of the soft requirements might be one of the 
first things an agency would have to do. You would get down to 
things that really have to be objectively measured as far as 
work at home or telework employees would be required.
    But I think that there should be some requirement that 
employees come back and meet with their team members and their 
other co-workers and their management to make sure everybody is 
on the same page and moving forward. That is what we are 
required to do, too.
    So just actually scattering people across the county and 
saying, OK, we will see you next year, is probably not the best 
policy.
    Mr. Cummings. And so just one last question, Mr. Chairman. 
I just find it so fascinating that I am sitting here, and where 
are you?
    Mr. Wilke. I am in Long Grove, IL, just north of Chicago.
    Mr. Cummings. It is fascinating that we are sitting here 
and having this hearing with you on the screen, and I guess we 
saved some money today, huh?
    Mr. Wilke. Well, I saved some money because I didn't have 
to get on United or Southwest and come into town.
    Mr. Cummings. All right. But your testimony has been very 
helpful, and obviously it is working for you. I take it that it 
sounds like your employers don't have any complaints with what 
you are doing. I think you said you won all these awards and 
everything. That says a lot.
    Mr. Wilke. Well, it has actually improved my performance to 
be able to be here where I can also have access to my family 
when they need me. I am not worried about taking a day's leave 
every time I have to meet with a contractor or have a doctor's 
appointment. I can work around it from here. But the geographic 
extension is the real icing on the cake, and that is the kind 
of thing that our agency is really in need of, especially on 
the patent side, to allow people to work really where they can 
best work and stay there.
    Mr. Cummings. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wilke. Thank you.
    Mr. Davis of Illinois. Thank you, Mr. Cummings.
    You know, it sounds like the environment probably has a 
great deal to do with his productivity. I mean, he is in 
Illinois.
    Mr. Wilke. The city of big shoulders.
    Mr. Davis of Illinois. Well, let me just ask you one 
question, Mr. Wilke. It is pretty obvious from your responses 
and your productivity that this opportunity has in many ways 
enhanced your own quality of life, increased perhaps your own 
productivity, and worked extremely well for you and your 
family, so it has done a great deal, I think, in that sense.
    What does it do for the agency?
    Mr. Wilke. Well, for the agency it gives the agency the 
ability to keep people that it takes years to really train a 
trademark examining attorney or a patent attorney, patent 
examiner, and, frankly, the private industry pays more than the 
Patent Office does, so it is such a benefit to a worker to be 
able to work from home that the retention rate has increased 
dramatically--I think Ms. Peterlin can speak to that--since 
telework was rolled out. The more it is implemented, the more 
effective that is.
    Mr. Davis of Illinois. Would you say it is also cost 
effective in terms of, I think one of our witnesses mentioned 
containment, cost containment, earlier. Do you think that when 
you add it all up and get the bottom line that it has been more 
cost effective for the agency to have you work the way that you 
work than to have you come into an office every day and do what 
it is that you do?
    Mr. Wilke. Absolutely. Absolutely. The trademark examining 
operation, we have over 500 people, almost 400 attorneys, yet 
we only occupy three floors out of those six buildings over in 
Alexandria. Everybody, if we were in the office, we would still 
have the same computer equipment that we are set up with at 
home, so there is no difference there. But there are about 200 
to 300 offices that are not used or not needed in the 
Alexandria campus because of the telework program. I am just 
speaking for the trademark side. It is even larger, of course, 
on the patent side.
    Mr. Davis of Illinois. Well, let me thank you very much. We 
appreciate your being with us. And I want to thank all of our 
witnesses. I think we have had a very productive morning. I 
want to thank our staff for the tremendous outreach that they 
have had and the recruitment that they have gone through to 
make sure that we have had witnesses that could give us great 
insight into this issue. We appreciate it very much.
    With that, this hearing is adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Frank R. Wolf follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
